No. 19In the

Supreme Court of the United States
APACHE CORPORATION,
Petitioner,
v.
BIGIE LEE RHEA,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI
Timothy S. McConn
Reagan W. Simpson
Shane Pennington
Yetter Coleman LLP
811 Main Street, Suite 4100
Houston, Texas 77002
(713) 632-8000

Michael L. Beatty
Counsel of Record
Beatty & Wozniak
216 16th Street, Suite 1100
Denver, CO 80202
(303) 407-4499
mbeatty@bwenergylaw.com

Mark Banner
Hall, Estill, Hardwick,
Gable, Golden & Nelson
320 South Boston Avenue,
Suite 200
Tulsa, OK 74103-3706
(918) 594-0400
Counsel for Petitioner
291258

i
QUESTION PRESENTED
Three circuits have held that Rule 23(b)(3) requires
proponents of class certification to show an administratively
feasible method for identifying class members. Four held
it does not. Among other things, the administrativefeasibility requirement ensures that i) putative class
members can be identified without individualized minitrials that defeat the efficiencies of class actions, ii)
persons without a claim are not included in the class, iii)
class members can receive appropriate notice of their
rights, and iv) defendants can enforce class judgments
and settlement releases.
In the case below, respondent did not propose an
administratively feasible method to ascertain class
membership. The undisputed record evidence established
that no such method was possible. Yet the district court
certified the class anyway because it assumed that the
class would “likely” turn out to be ascertainable and
petitioner could always move to decertify or redefine the
class later if the class proceedings proved unworkable.
Contrary to the ruling below, do Rule 23 and due
process require district courts to undertake a rigorous
analysis to determine whether the plaintiff has established
that class membership is ascertainable through an
administratively feasible method before certifying a class?

ii
PARTIES TO THE PROCEEDINGS
All parties to the proceedings are listed in the caption.
The petitioner is Apache Corporation. The respondent is
Bigie Lee Rhea.
Pursuant to Supreme Court Rule 29.6, the undersigned
counsel states that petitioner Apache Corporation is
a corporation duly incorporated under the laws of the
state of Delaware. It has no parent company. petitioner’s
common stock is listed on the NYSE, the Chicago Stock
Exchange, and the NASDAQ National Market, and trades
under the symbol “APA.” No publicly-held corporation
owns ten percent or more of Apache’s stock.

iii
PROCEEDINGS
• Apache Corporation v. Bigie Rhea, No. CJ-201600018, District Court in and for Dewey County
State of Oklahoma. Judgment entered June 1,
2018.
• Bigie Lee Rhea v. Apache Corporation, No. 14-CV433, U.S. District Court for the Eastern District
of Oklahoma. Class-certification granted Feb. 15,
2019; motion for reconsideration denied May 3,
2019.
• Apache Corporation v. Bigie Lee Rhea, No. 19602, U.S. Court of Appeals for the Tenth Circuit.
Order denying petition for permission to appeal
class certification order entered July 16, 2019.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED  . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED  . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 9
I.

The Circuits A re Divided . . . . . . . . . . . . . . . . . . 9
A. Several circuits require plaintiffs to
provide, pre-certification, a reliable,
eff icient method for identi f y ing
class members . . . . . . . . . . . . . . . . . . . . . . . . 10

v
Table of Contents
Page
B. Other circuits do not require plaintiffs
to provide, pre-certification, a reliable,
efficient method for identifying class
members  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
II. The Circuit Split Is Important Because
Critical Certification Decisions Currently
	Turn On Venue  . . . . . . . . . . . . . . . . . . . . . . . . . . 16
A. Class certification matters  . . . . . . . . . . . . . 16
B. T h e e nt r e n c h e d d i s a g r e e m e nt
among the circuit courts regarding
ascertainability leads to different results
in indistinguishable cases . . . . . . . . . . . . . .  17
III. This Case Is A n Excellent Vehicle  . . . . . . . . 19
A. Respondent did not and could not
propose a reliable, administratively
feasible method for identifying class
members  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
B. This case differs from previously
denied petitions . . . . . . . . . . . . . . . . . . . . . . . 20
IV. The Decision Below Is Wrong . . . . . . . . . . . . . . 23

vi
Table of Contents
Page
A. Rule 23 requires pre-certification
proof that a reliable, feasible method
for ident i f y i n g c l a s s me mb e r s
exists  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
B. T h e Te nt h C i r c u i t a b u s e d i t s
discretion in denying permission to
appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

vii
TABLE OF APPENDICES
Page
APPENDIX A — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED JULY 16, 2019  . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR T H E E A S T ER N DI ST RIC T OF
OKLAHOMA, FILED MAY 3, 2019 . . . . . . . . . . . . . 3a
A P P E N DI X C — O P I N ION O F T H E
UNITED STATES DISTRICT COURT
FOR T H E E A S T ER N DI ST RIC T OF
OKLAHOMA FILED FEBRUARY 15, 2019  . . . . . 9a
A P P E N DI X D — F E DE R A L RU L E S
OF CIVIL PROCEDURE RULE 23 . . . . . . . . . . . 34a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Ace Tree Surgery, Inc. v. Terex S. Dakota, Inc.,
2019 WL 4655945 (N.D. Ga. Sept. 23, 2019)  . . . . . . 18
Amchem Prods., Inc. v. Windsor,
521 U.S. 591 (1997)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Audet v. Fraser,
2019 WL 2562628 (D. Conn. June 21, 2019) . . . . . . . 18
Bigie Lee Rhea v. Apache Corp.,
No. 14-CV-433 (E.D. Okla. Oct. 31, 2016) . . . . . passim
Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723 (1975)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Briseno v. ConAgra Foods, Inc.,
844 F.3d 1121 (9th Cir. 2017) . . . . . . . . . . 14, 15, 18, 22
Bussey v. Macon Cty. Greyhound Park, Inc.,
562 F. App’x 782 (11th Cir. 2014) . . . . . . . . . . . . . . . . 12
Byrd v. Aaron’s Inc.,
784 F.3d 154 (3d Cir. 2015) . . . . . . . . . . . .  10, 13, 17, 24
Carrera v. Bayer Corp.,
727 F.3d 300 (3d Cir. 2013) . . . . . . . . . . . . . . . . . passim

ix
Cited Authorities
Page
Comcast Corp. v. Behrend,
133 S. Ct. 1426 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . 25
Compressor Engineering Corp. v. Thomas,
2016 WL 438963 (E.D. Mich. Feb. 3, 2016)  . . . . . . . 18
ConAgra Brands, Inc. v. Briseno,
138 S. Ct. 313 (Oct. 10, 2017)  . . . . . . . . . . . . . . . . . . . 20
Coopers & Lybrand v. Livesay,
437 U.S. 463 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . .  7, 16
Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Dart Cherokee Basin Operating Co. v. Owens,
135 S. Ct. 547 (2014)  . . . . . . . . . . . . . . . . . . . 1, 9, 26, 27
Deposit Guar. Nat’l Bank v. Roper,
445 U.S. 326 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Direct Digital, LLC v. Mullins,
136 S. Ct. 1161 (Feb. 29, 2016) . . . . . . . . . . . . . . . . . . 20
Downs v. Rivera,
2015 WL 9022001 (10th Cir. 2015) . . . . . . . . . . . . . . . .8
EQT Prod. Co. v. Adair,
764 F.3d 347 (4th Cir. 2014)  . . . . . . . . . . . . . . . . . 11, 12

x
Cited Authorities
Page
Fenwick v. Ranbaxy Pharmaceuticals, Inc.,
353 F. Supp. 3d 315 (D. N.J. 2018) . . . . . . . . . . . . . . .  17
Hayes v. Wal-Mart Stores, Inc.,
725 F.3d 349 (3d Cir. 2013) . . . . . . . . . . . . . . . . . .  10, 11
Hohn v. United States,
524 U.S. 236 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . 1, 26
In re Bridgestone/Firestone, Inc.,
288 F.3d 1012 (7th Cir. 2002) . . . . . . . . . . . . . . . . . . . 16
In re Rhone-Poulenc Rorer, Inc.,
51 F.3d 1293 (7th Cir. 1995) . . . . . . . . . . . . . . . . . . . . 16
Karhu v. Vital Pharmaceuticals, Inc.,
621 F. App’x 945 (11th Cir. 2015) . . . . . . . . . . . . . . . . 12
Koon v. United States,
518 U.S. 81 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Little v. T-Mobile USA, Inc.,
691 F.3d 1302 (11th Cir. 2012)  . . . . . . . . . . . . . . . . . . 12
Marcus v. BMW of N. Am., LLC,
687 F.3d 583 (3d Cir. 2012) . . . . . . . . . . . . 10, 11, 12, 24
Moser v. Health Ins. Innovations, Inc.,
2019 WL 3719889 (S.D. Cal. Aug. 2, 2019) . . . . . . . . 18

xi
Cited Authorities
Page
Mullins v. Direct Dig., LLC,
795 F.3d 654 (7th Cir. 2015) . . . . . . . . . . . . . . . . passim
Papason v. Domestic Corp.,
2019 WL 3317750 (S.D. Fla. June 28, 2019) . . . . . . . 18
Procter & Gamble Co. v. Rikos,
136 S. Ct. 1493 (Mar. 28, 2016) . . . . . . . . . . . . . . . . . . 20
Republic of Philippines v. Pimentel,
553 U.S. 851 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Rikos v. Procter & Gamble Co.,
799 F.3d 497 (6th Cir. 2015) . . . . . . . . . . . . . . 14, 21, 22
Silwa v. Bright House Networks, LLC,
2019 WL 4744938 (Md. Fla. Sept. 27, 2019) . . . . . . .  17
Standard Fire Ins. Co. v. Knowles,
133 S. Ct. 1345 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Universities Superannuation Scheme Ltd. v.
Petroleo Brasileiro S.A.,
862 F.3d 250 (2d Cir. 2017) . . . . . . . . . . . . . . . . . . . . . 15
Walker v. B&G Foods, Inc.,
2019 WL 3934941 (N.D. Cal. Aug. 20, 2019)  . . . . . . 18
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

xii
Cited Authorities
Page
Ward v. EZCorp, Inc.,
2017 WL 908194 (11th Cir. Mar. 8, 2017) . . . . . . . . . 12
STATUTES AND OTHER AUTHORITIES
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
47 U.S.C. § 227  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
1 MCL AUGHLIN ON CL A S S ACTIONS
§ 4:2 (13th ed. 2016 update)  . . . . . . . . . . . . . . . . . . . .  17
7A FEDERAL PRACTICE & PROCEDURE
§ 1760 (3d ed. Jan. 2017) . . . . . . . . . . . . . . . . . . . . . . .  17
Fed. R. Civ. P. 23 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 23(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Fed. R. Civ. P. 23(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Fed. R. Civ. P. 23(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Fed. R. Civ. P. 23(f) . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Henr y J. Fr iendly, Federal Jur isdiction:
A General View 120 (1970) . . . . . . . . . . . . . . . . . . . . . 16

xiii
Cited Authorities
Page
Sup. Ct. R. 10(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Sup. Ct. R. 10(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

1
Petitioner Apache Corporation respectfully asks the
Court to issue a writ of certiorari to the United States
Court of Appeals for the Tenth Circuit in Apache Corp.
v. Bigie Lee Rhea, No. 19-602.
OPINIONS BELOW
The Tenth Circuit’s order denying Apache’s petition
for permission to appeal under Rule 23(f) is unreported
but is reprinted in the Appendix at App. 1a-2a. The district
court’s order granting class certification is reprinted at
App. 9a-33a. The district court’s order denying Apache’s
motion for reconsideration is reprinted at App. 3a-8a.1
STATEMENT OF JURISDICTION
The Tenth Circuit denied Apache’s petition for
permission to appeal on July 16, 2019. App. A. This Court
has jurisdiction under 28 U.S.C. § 1254(1). See Dart
Cherokee Basin Operating Co. v. Owens, 135 S. Ct. 547,
554-58 (2014) (Supreme Court may grant certiorari after
Court of Appeals denies petition for permission to appeal);
Standard Fire Ins. Co. v. Knowles, 133 S. Ct. 1345 (2013)
(same); Hohn v. United States, 524 U.S. 236, 242 (1998)
(same).
STATUTORY PROVISION INVOLVED
This case involves Federal Rule of Civil Procedure
23, which is reproduced at App. 34a-44a.

1. Citations in the form “App. __” are to the petition appendix.

2
STATEMENT
Respondent, an Oklahoma mineral owner, receives
royalty payments from gas produced by six Apacheoperated wells in Western Oklahoma. Ex. N to Apache
Corporation’s Response in Opposition to Plaintiff’s
Motion for Class Certification, Bigie Lee Rhea v. Apache
Corp., No. 14-CV-433 (E.D. Okla. Oct. 31, 2016), ECF
No. 164 (Original Petition ¶5, filed under seal). Apache
entered into two midstream services contracts in 1998
(the “1998 Contracts”) with Transok Inc. Id. ¶ 7. Enogex
LLC subsequently purchased Transok, Inc., which later
became Enable Midstream Partners, LP (collectively
referred to as “Enable”). Id. ¶ 8. The 1998 Contracts were
“keep-whole” agreements common in the industry at the
time whereby Enable gathered gas produced from Apache
wells and redelivered a thermally equivalent volume of
gas to Apache at downstream locations. Id. ¶ 9. The 1998
Contracts gave Enable the right to process the gas to
remove and retain natural gas liquids (“NGLs”). Ibid.
For many reasons, not all gas produced from the
Apache wells in question was processed. Ex. C to Apache
Corporation’s Response in Opposition to Plaintiff’s Motion
for Class Certification, Bigie Lee Rhea v. Apache Corp.,
No. 14-CV-433 (E.D. Okla. Oct. 31, 2016), ECF No. 164
(Declaration of Mark Huffer ¶ 3, filed under seal). From
1998 forward, the Enable facilities changed and evolved.
Id. ¶¶ 3-8. Gathering pipelines were constructed, replaced,
rerouted, and abandoned. Id. ¶¶ 4, 6-9. Processing plants
used to extract NGLs were also constructed, modified,
and abandoned. Ibid. As a result, the potential for gas
produced from any given well to be processed changed
month-to-month. Because the processing plants in the

3
Enable system had varying processing capacities over
the course of the class period, the fact that gas could be
processed did not mean it was in fact processed. Id. ¶ 7.
Market realities also caused gas from the relevant
wells to go unprocessed at different times during the
class period. Id. ¶ 9. NGLs are a commodity, and like any
other commodity, NGL prices fluctuated significantly over
the class period. As a result, there were periods when it
was not economically beneficial for Enable to process gas
from the Apache wells in question. During those periods,
Enable processed little or none of Apache’s gas.
Determining which gas from which wells was actually
processed during any given month is difficult, if not
impossible. Under the 1998 Contracts, Apache delivered
gas to Enable at or near Apache wells and received a
thermally equivalent volume of gas downstream. Ex. N to
Apache Corporation’s Response in Opposition to Plaintiff’s
Motion for Class Certification, Bigie Lee Rhea v. Apache
Corp., No. 14-CV-433 (E.D. Okla. Oct. 31, 2016), ECF No.
164 (Original Petition ¶ 9, filed under seal). Under that
arrangement, there was no business reason for Apache
or Enable to know whether gas from any particular well
was being processed in any particular month. Nor did
respondent or the district court identify any records that
might provide the answers.
Respondent brought a putative class action against
Apache in Oklahoma state court, seeking to represent a
class of royalty owners with interests in an unidentified
set of Apache-operated wells in Western Oklahoma. Id. at
1. Respondent’s original petition alleged Apache breached
its leases by failing to pay royalties on the value of NGLs

4
in the gas stream produced from wells dedicated under
the 1998 Contracts. Id. ¶¶ 20-24. Respondent’s liability
theory applied only to royalties paid on gas that was
actually processed. App. 20a-21a. During months when
Enable did not, for whatever reason, actually process the
gas produced from the relevant Apache wells, Enable
did not remove and retain the relevant NGLs, and the
corresponding royalty payments were not subject to the
alleged shortfall. Id. at 21a.
Respondent initially sought to represent a class of
royalty owners with interests in Apache wells which
produced gas that “was or could have been” processed
during the period the 1998 Contracts were in effect.
Ex. N to Apache Corporation’s Response in Opposition
to Plaintiff’s Motion for Class Certification 12-14, Bigie
Lee Rhea v. Apache Corp., No. 14-CV-433 (E.D. Okla.
Oct. 31, 2016), ECF No. 164 (Original Petition ¶ 14, filed
under seal). In his motion for class certification, however,
respondent sought to represent a different class—one not
limited to wells producing gas that “was or could have
been processed.” App. 30a. But because respondent’s
liability theory remained limited to gas that was, in fact,
processed, Apache argued that the putative class could
not be certified because, among other reasons, it was not
ascertainable. Apache Corporation’s Response to Motion
for Class Certification 12-14, Bigie Lee Rhea v. Apache
Corp., No. 14-CV-433 (E.D. Okla. Oct. 31, 2014), ECF No.
161, filed under seal. In particular, Apache argued that
respondent had failed to identify any objectively reliable,
administratively feasible method for determining class
members’ gas was actually processed during the class
period. Id. at 13.

5
In support of its ascertainability argument, Apache
relied on cases from the Third Circuit requiring
would-be class plaintiffs to demonstrate a reliable and
administratively feasible means of identifying class
members before a class may be certified. Id. at 12 &
n.5 (discussing Third Circuit cases and noting that “[t]
he Tenth Circuit has not yet adopted a specific test for
ascertainability and there is a circuit split regarding the
applicable test.”).
Respondent argued that Rule 23 does not require
putative class plaintiffs to demonstrate ascertainability
at the class-certification stage. Bigie Lee Rhea’s Notice of
Supplemental Authority 4-5 & nn.1-2, Bigie Lee Rhea v.
Apache Corp., No. 14-CV-433 (E.D. Okla. Feb. 18, 2017),
ECF No. 231. Although he acknowledged that Apache
had cited cases to the contrary, respondent emphasized
that other circuits disagreed, and the Tenth Circuit had
declined to address the issue. Id. He urged the district
court to reject the Third Circuit standard in favor of the
approach of other circuits that rejected any independent
ascertainability requirement applicable at the classcertification stage. Id.
T he d ist r ict cou r t ag reed w ith Apache that
respondent’s claims depended on the gas actually being
processed. App. 20a-21a. In its view, however, respondent
could fix the problem by redefining the class to include
only wells whose gas was, in fact, processed. Id. at 21a.
On that basis, the district court granted class certification
subject to respondent redefining the class definition to
reflect that supposedly curative limitation that the gas
must actually be processed. Ibid. Instead of proposing
the new class definition ordered by the district court,

6
respondent proposed a class covering all wells “upstream
of a processing plant.” Bigie Lee Rhea’s Modified Class
Definition 1, Bigie Lee Rhea v. Apache Corp., No. 14-CV433 (E.D. Okla. Mar. 1, 2019), ECF No. 296.
Apache sought reconsideration, arguing that without
any administratively feasible means of identifying class
members, the certified class was not ascertainable as
Rule 23 requires. Apache Corporation’s Motion for
Reconsideration 3, No. 14-CV-433 (E.D. Okla. Mar. 1,
2019), ECF No. 295. Although the district acknowledged
Apache’s ascertainability concerns, it concluded that they
need not impede class certification for two reasons: (1) in
the district court’s view, gas from so-called “upstream”
wells “likely” “would be processed,” and (2) if that
assumption proved unfounded or if determining which
wells were “upstream” turned out to be unworkable as
Apache had warned, it could always move to decertify or
redefine the class later. App. 4a-5a.
Apache filed a petition under Rule 23(f) for permission
to appeal the district court’s class-certification order.
Apache Corporation’s Petition for Permission to Appeal,
Apache Corporation v. Bigie Lee Rhea, No. 19-602 (10th
Cir. May 17, 2019). Focusing on the same ascertainability
concerns and emphasizing the entrenched circuit split and
the Tenth Circuit’s silence on the issue, Apache argued
that its petition raised an unresolved legal issue central
to Rule 23 jurisprudence. Id. at 6-7. In particular, it
explained that “there is currently a split in the federal
appellate circuits concerning the precise evidentiary
burden for demonstrating ascertainability.” Id. at 6.
After describing the Third Circuit’s demanding standard,
Apache noted that “[t]he Seventh Circuit has adopted a

7
lower standard for ascertainability, differing from the
heightened analysis of the Third Circuit.” Id. at 7 (citing
Mullins v. Direct Dig., LLC, 795 F.3d 654, 659-61 (7th
Cir. 2015)).
Apache also emphasized the absence of guidance
from the Tenth Circuit regarding ascertainability and
the requisite “burden of proof” plaintiff’s should bear
with respect to the issue at the class-certification stage.
Id. at 7. “As a result of this split in the federal circuits
and the lack of direct authority in the 10th Circuit,”
Apache explained, the court should grant the petition “to
provide guidance as to the ascertainability analysis and
the necessary burden of proof borne by the party seeking
certification.” Ibid. It proceeded to argue that because
respondent failed even to propose a feasible “method for
ascertaining which wells are upstream of a processing
plant or even if they are, how one would determine if and
when gas from a particular well was actually processed,”
id. at 14, he could not possibly have carried any burden of
proof applicable at the class-certification stage, no matter
how light, id. at 7.
Finally, Apache noted that due to the in terrorem effects
associated with class-certification, the ascertainability
issue would very likely evade review if the court refused
its requested appeal. Id. at 8 (citing Vallario, at 1262);
see also Coopers & Lybrand, 437 U.S. 463, 476 (1978)
(defendant facing the specter of classwide liability may
“abandon a meritorious defense”).
Emphasizing that the Tenth Circuit “strongly
disfavor[s]” interlocutory review of class-certification
orders, respondent called Apache’s petition “a waste of

8
time.” Bigie Lee Rhea’s Answer in Opposition to Rule 23(f)
Petition 1, Apache Corporation v. Bigie Lee Rhea, No. 19602 (10th Cir. May 30, 2019) (citing Downs v. Rivera, 2015
WL 9022001, at *1 (10th Cir. 2015) (unpublished) (emphasis
in original)). He admitted that his claims hinged on the
“allegation that Apache failed to pay royalty on processed
gas.” Bigie Lee Rhea’s Answer in Opposition to Rule 23(f)
Petition 12, Apache Corporation v. Bigie Lee Rhea, No.
19-602 (10th Cir. May 30, 2019). He also acknowledged
that the record evidence proved that Apache was, in fact,
correct that Enable processed its gas in some but not all
months across the class period. Id. at 14.
Nor did respondent deny the entrenched circuit
split on the issue or the lack of guidance from the Tenth
Circuit regarding the proper standard. To the contrary, he
openly acknowledged both. Id. at 11. Nevertheless, despite
offering no reliable, administratively feasible method of
his own for identifying class members, respondent insisted
that “this simply [wa]s not the right case” for the Tenth
Circuit to address the ascertainability puzzle. Id. at 7.
After all, he explained, Apache had not proven that the
class would necessarily be unworkable, id. at 16, and even
if it did prove unworkable later, “Apache ha[d] a remedy:
seek to redefine or recertify the class,” id. at 8.
Apache’s reply brief emphasized respondent’s failure
even to propose a solution to the ascertainability problem
at the heart of the case. Apache Corporation’s Reply In
Support of Petition for Permission to Appeal 4, Apache
Corporation v. Bigie Lee Rhea, No. 19-602 (10th Cir.
June 6, 2019). Given that he also acknowledged the deep
disagreement among the circuit courts on the issue as
well as the lack of guidance from the Tenth Circuit on the
applicable standard, Apache urged the appellate court

9
to “grant [the] Petition to facilitate development of class
action law.” Id. at 3.
The Tenth Circuit denied Apache’s petition, effectively
blessing the district court’s approach of certifying classes
while deferring ascertainability issues for potential,
post-certification consideration under a yet-unannounced
standard. See Dart, 135 S. Ct. at 556 (reversing another
Tenth Circuit order denying petition for permission to
appeal, and emphasizing that by denying the petition,
the Tenth Circuit effectively froze “the law applied by
the district court … in place for all venues within” its
jurisdiction). The panel explained that it had “carefully
considered the … parties’ submissions,” including
Apache’s description of the entrenched circuit split on the
ascertainability issue at the heart of the petition. App. 2a.
Inexplicably, however, it concluded that “this matter [wa]
s not appropriate for immediate review” because it did
not present “an unresolved issue of law relating to class
actions.” Ibid. Apache timely filed this petition for a writ
of certiorari.
REASONS FOR GRANTING THE PETITION
I.

The Circuits Are Divided.

Would-be class plaintiffs in the Third, Fourth, and
Eleventh Circuits must provide an efficient method for
identifying absent class members; would-be class plaintiffs
in the Sixth, Seventh, Ninth, and Second Circuits need not.
Class certification—“often the most significant decision
rendered in … class-action proceedings,” Deposit Guar.
Nat’l Bank v. Roper, 445 U.S. 326, 339 (1980)—should not
turn on venue. This Court should resolve this important
circuit split.

10
A.

Several circuits require plaintiffs to provide,
pre-certification, a reliable, efficient method
for identifying class members.

In the Third Circuit, “ascertainability is ‘an essential
prerequisite of a class action.’” Carrera v. Bayer Corp., 727
F.3d 300, 306 (3d Cir. 2013) (quoting Marcus v. BMW of N.
Am., LLC, 687 F.3d 583, 592-93 (3d Cir. 2012)). Plaintiffs
must therefore show that the proposed class is “defined
with reference to objective criteria,” and that there is
“a reliable and administratively feasible mechanism for
determining whether putative class members fall within
the class definition.” Hayes v. Wal-Mart Stores, Inc., 725
F.3d 349, 355 (3d Cir. 2013); Byrd v. Aaron’s Inc., 784 F.3d
154, 163 (3d Cir. 2015) (same).
Because of the “key roles” these related questions
“play[] as part of a Rule 23(b)(3) class action,” district
courts must “rigorous[ly]” examine them “at the outset.”
Carrera, 727 F.3d at 307. Each “eliminates serious
administrative burdens that are incongruous with the
efficiencies expected in a class action.” Id. They also
facilitate notice, guard absent class members against
fraud, and protect the defendant’s right to challenge every
claimant’s class membership. Id. at 307, 310; see Marcus,
687 F.3d at 593.
Under this approach, any proposed method of
identification must provide more than just “the sayso of
putative class members.” Hayes, 725 F.3d at 356; see also
Marcus, 687 F.3d at 594. And any proposed method that
would require “extensive and individualized fact-finding”
will be rejected. Hayes, 725 F.3d at 356.

11
The Third Circuit has applied its ascertainability
requirement to stop several putative class actions at the
certification stage. In Carrera, it set aside certification of
a class of retail purchasers of One-A-Day WeightSmart
nutritional supplements. 727 F.3d at 300. Plaintiffs had “no
evidence” that retailers had records covering the relevant
period, nor had they proposed a method for screening
affidavits that was “reliable” and “specific to th[e] case.”
Id. at 309, 311.
In Hayes, the Third Circuit vacated a class of those
who had purchased warranties on certain items at Sam’s
Club because none of the company’s records would allow
the court to identify the relevant purchases, and the
plaintiffs offered only other class members’ “say-so” as an
alternative method. 725 F.3d at 355-56. And in Marcus,
it vacated a class of those who purchased or leased cars
with run-flat tires and then had those tires replaced after
they went flat. 687 F.3d at 588. Dealership records did
not identify which cars came to the lot with runflat tires,
which cars left the lot with those tires, or which tires were
replaced at third-party repair shops. See id. at 593-94.
The Fourth Circuit has also “repeatedly recognized”
ascertainability as an “implicit threshold requirement”
that plaintiffs must meet prior to certification. EQT Prod.
Co. v. Adair, 764 F.3d 347, 358 (4th Cir. 2014). Plaintiffs
must therefore demonstrate that “the members of [the]
proposed class [are] readily identifiable.” Id. In EQT, the
district court certified classes of those who owned interests
in coalbed methane gas and had allegedly not received
the royalties they were owed. Id. at 352. Identifying the
owners of those interests, however, was easier said than
done. Records prepared years before offered a starting

12
point, but “numerous heirship, intestacy, and title-defect
issues” still “plague[d]” the process of locating them. Id.
at 359.
The Fourth Circuit vacated class certification. If class
members cannot be “identif[ied] without extensive and
individualized fact-finding,” it explained, “then a class
action is inappropriate.’” Id. (quoting Marcus, 687 F.3d
at 593). Because the district court had considered neither
the “number” of difficult-to-identify owners nor any “trial
management tools … available to ease th[e] process” of
identifying them, the Fourth Circuit remanded for the
district court to assess ascertainability properly before
certification. Id. at 360.
Finally, in the Eleventh Circuit, plaintiffs “must
establish that the proposed class is adequately defined
and clearly ascertainable” “[b]efore a district court may
grant a motion for class certification.” Little v. T-Mobile
USA, Inc., 691 F.3d 1302, 1304 (11th Cir. 2012). In Karhu
v. Vital Pharmaceuticals, Inc., 621 F. App’x 945 (11th Cir.
2015), the Eleventh Circuit rejected a proposed class of
those who had purchased the defendant’s VPX Meltdown
Fat Incinerator. VPX’s sales data “identified mostly thirdparty retailers, not class members,” and the plaintiff did
not show that third-party subpoenas to those retailers
could bridge the gap. Nor did he explain how affidavits
could be used without generating myriad mini-trials. See
id. at 949-50; see also Ward v. EZCorp, Inc., 2017 WL
908194 (11th Cir. Mar. 8, 2017) (per curiam) (rejecting
putative class because the plaintiff proposed no method
that could identify pawn shop customers wrongly charged
a particular fee); Bussey v. Macon Cty. Greyhound Park,
Inc., 562 F. App’x 782, 788 (11th Cir. 2014) (per curiam)

13
(vacating because plaintiffs “provided [no] indication” they
could identify class members using records or another
reliable method).
B. Other circuits do not require plaintiffs to
provide, pre-certification, a reliable, efficient
method for identifying class members.
Other circuits do not require plaintiffs to show that a
reliable means of identifying class members exists before
they may proceed as a class. These circuits all recognize
their disagreement with (at least) the Third Circuit.
In Mullins v. Direct Dig., LLC, 795 F.3d 654 (7th
Cir. 2015), the district court certified classes of those
who had purchased Instaflex Joint Support. Relying on
Third Circuit precedent, Direct Digital asked the Seventh
Circuit to decertify, explaining that it “ha[d] no records for
a large number of retail customers,” most consumers likely
had not “kept their receipts,” and there was no effective
means of screening self-serving affidavits. Id. at 661.
The Seventh Circuit “decline[d]” to follow the Third
Circuit’s approach. Id. at 662. It accepted as “wellsettled” the requirement that a class be “defined clearly
and based on objective criteria.” Id. at 659. It refused,
however, to require plaintiffs to provide “a reliable and
administratively feasible mechanism for determining
whether putative class members fall within the class
definition.” Id. at 662 (quoting Byrd, 784 F.3d at 163).
The court recognized the “substantial and legitimate”
concerns underlying the Third Circuit’s approach, id.
at 663, but concluded that they were “better addressed”
through other class-certification requirements, which

14
“balance [the] interests that Rule 23 is designed to
protect.” Id. at 658, 672. The Third Circuit’s approach,
according to Mullins, “upsets this balance” and might
prevent low-value consumer class actions from ever being
certified. See id. at 658, 664-68.
In Rikos v. Procter & Gamble Co., 799 F.3d 497 (6th
Cir. 2015), the district court certified classes of those who
had purchased Align, a probiotic nutritional supplement
that plaintiffs alleged did not aid digestion as advertised.
But because most consumers bought Align from retailers,
Procter & Gamble argued that there was “no plausible way
to verify that any one single individual actually purchased
Align.” Id. at 524-25.
The Sixth Circuit, however, “s[aw] no reason to
follow Carrera” and its demand that plaintiffs propose
a reliable, efficient means of identifying class members.
Id. at 525. Like the Seventh Circuit, it worried that an
ascertainability requirement would eliminate class actions
for many low-value consumer goods. See id. Thus, even
though identifying Align purchasers might “require
substantial review,” the court upheld class certification
because the class was “defined by objective criteria.” Id.
at 526.
In Briseno v. ConAgra Foods, Inc., 844 F.3d 1121 (9th
Cir. 2017), the Ninth Circuit followed suit. It acknowledged
that the district court had not required plaintiffs to
“proffer a reliable way to identify members of the certified
classes.” ConAgra, 844 F.3d at 1123. It also did not dispute
ConAgra’s basic claim that, given the absence of records
and the perils of memory, “consumers would not be able
to reliably identify themselves as class members.” Id.
at 1124. Nonetheless, the Ninth Circuit “decline[d]” to

15
require a mechanism for identifying absent class members
and upheld class certification. Id. at 1126.
Most recently, the Second Circuit expressly rejected the
Third Circuit’s approach. In Universities Superannuation
Scheme Ltd. v. Petroleo Brasileiro S.A. (In re Petrobras
Sec.), 862 F.3d 250 (2d Cir. 2017), the plaintiffs sought
to certify a class of those who purchased certain debt
securities in “domestic transactions.” But because the
securities did not trade on any domestic exchange, the
district court would need to “assess each class member’s
over-the-counter transactions for markers of domesticity.”
Id. at 256. Defendants argued that “the need for such
assessments” rendered the class unascertainable and
“preclude[d] class certification.” Id. at 257.
The Second Circuit “t[ook] the opportunity to clarify
the scope of the contested ascertainability doctrine” and
held that “a class is ascertainable if it is defined using
objective criteria that establish a membership with
definite boundaries.” Id. at 264. It expressly rejected any
“‘heightened’ ascertainability requirement under which
any proposed class must be ‘administratively feasible,’
over and above the evident requirements that a class be
‘definite’ and ‘defined by objective criteria,’ and separate
from Rule 23(b)(3)’s requirements of predominance and
superiority.” Id. at 265.
The Tenth Circuit’s order denying permission to
appeal in this case effectively approved the approach to
ascertainability adopted by the Sixth, Seventh, Ninth, and
Second Circuits and permitted district court’s to certify
classes while deferring known ascertainability problems
for potential, post-certification consideration under a yetunannounced standard.

16
II. The Circuit Split Is Important Because Critical
Certification Decisions Currently Turn On Venue.
A.

Class certification matters.

Class certification is a game changer. Often, it “so
increase[s] the defendant’s potential damages liability and
litigation costs that he may find it economically prudent
to settle and to abandon a meritorious defense.” Coopers
& Lybrand v. Livesay, 437 U.S. 463, 476 (1978). Worse,
defendants are often left with little choice but to abandon
cases that are clear winners. “[W]hen damages allegedly
owed to thousands of potential claimants are aggregated
and decided at once, the risk of error will often become
unacceptable.” AT&T Mobility LLC v. Concepcion, 563
U.S. 333, 350 (2011). “Faced with even a small chance of a
devastating loss, defendants will be pressured into settling
questionable claims.” Id.
The effects of these coercive forces are not lost on
the plaintiffs’ bar. After certification, “even a complaint
which by objective standards may have very little chance
of success at trial has a settlement value to the plaintiff
out of any proportion to its prospect of success at trial.”
Blue Chip Stamps v. Manor Drug Stores, 421 U.S. 723,
740 (1975). That is so because the post-certification value
of plaintiffs’ claims “reflects the risk of a catastrophic
judgment as much as, if not more than, the actual merit
of the claims.” In re Bridgestone/Firestone, Inc., 288
F.3d 1012, 1016 (7th Cir. 2002) (Easterbrook, J.). “Judge
Friendly, who was not given to hyperbole,” aptly called
them “blackmail settlements.” In re Rhone-Poulenc
Rorer, Inc., 51 F.3d 1293, 1298 (7th Cir. 1995) (Posner,
J.) (quoting Henry J. Friendly, Federal Jurisdiction: A
General View 120 (1970)).

17
B. The entrenched disagreement among the
circuit courts regarding ascertainability leads
to different results in indistinguishable cases.
Circuit courts recognize that their divergence on the
ascertainability issue affects many certification decisions.
Mullins explained, for example, that the “heightened”
ascertainability requirement applied in other circuits “has
defeated certification,” 795 F.3d at 657. Commentators
have also noted the often-dispositive disagreement.
See, e.g., 1 MCLAUGHLIN ON CLASS ACTIONS § 4:2
(13th ed. 2016 update) (noting that the Sixth and Seventh
Circuits “have rejected” the Third Circuit’s approach);
7A FEDERAL PRACTICE & PROCEDURE § 1760
(3d ed. Jan. 2017) (noting that the Seventh Circuit has
“specifically rejected” the Third Circuit’s approach).
Recent litigation independently confirms that
certification often turns on geography. Courts that
require plaintiffs to propose a reliable, feasible method
of identification routinely deny class certification. In
Fenwick v. Ranbaxy Pharmaceuticals, Inc., 353 F.
Supp. 3d 315, 318 (D. N.J. 2018), for instance, the court
refused to certify a class of those who purchased the
drug Atorvastatin—the generic version of the drug
Lipitor—explaining that plaintiff ’s failure to show
that its proposed method of identifying class members
“w[ould] be successful” thwarted class certification, id.
at 327 (quoting Byrd, 784 F.3d at 16). In Silwa v. Bright
House Networks, LLC, 2019 WL 4744938, at *12-13 (Md.
Fla. Sept. 27, 2019), the court noted the circuit split on
ascertainability before declining to certify a class under
the Telephone Consumer Protection Act (“TCPA”), 47
U.S.C. § 227, et seq. Because identifying class members
would require significant individualized inquiries. Id. A

18
putative class of those who purchased or leased a vehicle
equipped with “Terex Hi-Ranger XT” devices met the
same fate. See Ace Tree Surgery, Inc. v. Terex S. Dakota,
Inc., 2019 WL 4655945, at *2-3 (N.D. Ga. Sept. 23, 2019).
Ditto for a putative class of those who purchased certain
allegedly defective Domestic Corporation refrigerators.
See Papason v. Domestic Corp., 2019 WL 3317750, at *5-6
(S.D. Fla. June 28, 2019).
Virtually identical classes sail through in jurisdictions
where courts ask only for an objectively defined class. See,
e.g., Audet v. Fraser, 2019 WL 2562628, at *12 (D. Conn.
June 21, 2019) (rejecting ascertainability objection and
certifying class of those who invested in products that
ostensibly allowed them to share in the profits generated
by mining cryptocurrency); Compressor Engineering
Corp. v. Thomas, 2016 WL 438963 (E.D. Mich. Feb. 3,
2016) (rejecting ascertainability objection and holding that
issues of ascertainability could be addressed after classcertification). Indeed, since ConAgra, courts in the Ninth
Circuit routinely refuse to consider ascertainability-based
objections to class certification altogether. See Moser
v. Health Ins. Innovations, Inc., 2019 WL 3719889, at
*12 (S.D. Cal. Aug. 2, 2019) (rejecting ascertainability
challenge to class certification in a TCPA case because
ConAgra “rejected this type of ascertainability argument
as a stand-alone rationale for denying class certification”);
Walker v. B&G Foods, Inc., 2019 WL 3934941, at *4 (N.D.
Cal. Aug. 20, 2019) (refusing to address ascertainability
challenge to putative class of those who purchased
defendants’ taco shells, explaining that ConAgra
“forecloses Defendants’ argument that Walker’s class
claims should be dismissed on grounds that ‘Plaintiff has
not alleged any plausible way to identify who would be in
the class’”).

19
III. This Case Is A n Excellent Vehicle.
A.

Respondent did not and could not propose a
reliable, administratively feasible method for
identifying class members.

The class here could not have been certified if the
district court had required respondent to put forward an
objective, efficient, and reliable method for identifying
those who, over an eleven-year period, held royalty
interests in wells producing gas that was, in fact,
processed. The district court recognized as much. App.
4a. But because Apache could always move to decertify
or to redefine the class if the case eventually proved
unworkable, the district court concluded that Apache’s
ascertainability concerns should not preclude certification.
Id. at 3a.
The lower courts had no choice but to resolve this
case on the law: respondent did not propose a reliable
and efficient means of identifying royalty owners with
interests in Apache wells producing gas that was, in fact,
processed, and no such method exists. Apache itself has
no records regarding whether any particular well’s gas
was eventually processed in any particular month during
the pre-2011 class period. Respondent never identified
any such records obtained from any other source. And
the district court did not explain how it proposed to
identify wells “upstream of a processing plant” or any
evidence supporting its assumption that gas from such
unidentified (and perhaps unidentifiable) upstream wells
would necessarily have been processed.

20
Nor did respondent propose a cure for these defects.
Carrera, 727 F.3d at 304. He argued that would-be class
representatives need not proffer any feasible method of
identification, and even if there were such a requirement,
it would pose no obstacle here because, according to
respondent’s unsupported sayso at least, gas from the
wells in question was very likely processed. Respondent
recognized, however, that this argument conflicted with
the Third Circuit’s more demanding approach. Bigie Lee
Rhea’s Notice of Supplemental Authority 4-5 & nn.1-2,
Bigie Lee Rhea v. Apache Corp., No. 14-CV-433 (E.D.
Okla. Feb. 18, 2017), ECF No. 231 (arguing that Apache’s
more-demanding ascertainability standard mirrors the
Third Circuit’s and therefore conflicts with test adopted
by other circuit courts).
In sum, class certification would have been out of the
question under the more demanding standard applied in
the Third, Fourth, and Eleventh Circuits. There could not
be a cleaner vehicle for resolving that split.
B. This case differs from previously denied
petitions.
This Court has declined to review the circuit split on
ascertainability in three previous cases. See ConAgra
Brands, Inc. v. Briseno, 138 S. Ct. 313 (Oct. 10, 2017)
(mem.); Procter & Gamble Co. v. Rikos, 136 S. Ct. 1493
(Mar. 28, 2016) (mem.); Direct Digital, LLC v. Mullins,
136 S. Ct. 1161 (Feb. 29, 2016) (mem.). Those petitions,
unlike this one, were flawed vehicles because each involved
a consumer class where there was at least some basis
for believing that most class members could easily be
identified anyway.

21
In Rikos, for example, Procter & Gamble raised
ascertainability as its third question presented. See
Petition, 2015 WL 9591989, at i. After rejecting Carrera,
the Sixth Circuit held that “[e]ven if [it] were to apply
Carrera, there [we]re significant factual differences that
ma[d]e [Rikos’s] class more ascertainable” than the one
in that case. 799 F.3d at 526. Procter & Gamble’s “own
documents indicate[d] that more than half of its sales”
took place “online” and that, “[a]t a minimum, online sales
would provide the names and shipping addresses of those
who purchased Align.” Id. “In addition,” studies conducted
by Procter & Gamble “reveal[ed] that an overwhelming
number of customers learned about Align through their
physicians.” Id. Thus, unlike the Carrera defendants,
Procter & Gamble “could verify that a customer purchased
Align by, for instance, requesting a signed statement
from that customer’s physician,” with “[s]tore receipts
and affidavits ... supplement[ing]” these other methods.
Id. at 527.
The respondent in Rikos flagged these problems. See
BIO, 2016 WL 4176854, at *32. Procter & Gamble disputed
the accuracy of the Sixth Circuit’s factual findings, but it
could not dispute that the Sixth Circuit had made them
and had relied on them in reaching its alternative holding.
See Reply, 2016 WL 1056624, at *11-12.
Mullins also presented a problematic vehicle. Direct
Digital was primarily a direct online retailer. It sought
customers through television and online advertising and,
once armed with the credit card and shipping information
that customers themselves provided, sent a free bottle with
14 days’ worth of its product. BIO, 2015 WL 9488470, at
*1-2. Unless customers canceled, however, Direct Digital

22
then shipped additional product to those customers each
month and charged their already-provided credit cards.
Id. at *2. Direct Digital sold some of its product through
retailers, but the bulk of its revenue came through direct
sales. Id.
Direct Digital quibbled with some of these facts. It
claimed, for instance, that sales percentages told only half
the story because some of its customers bought more than
others. See Reply, 2016 WL 159561, at *5. But it could not
deny the respondent’s fundamental points. The most it
would say—in a footnote—was that it made “around half”
of its sales at retail. Id. at *5 n.1. In other words, most
class members could be identified after all.
ConAgra involved a consumer class action where the
class definition covered purchasers of a particular cooking
oil. 844 F.3d at 1123. The boundaries of the relevant class
at issue there were apparent, and the plaintiffs had offered
evidence that arguably would facilitate the process of
identifying class members (namely affidavit testimony).
Id. at 1132. Here, by contrast, respondent offered no
method for determining which wells were “upstream” of a
processing plant, much less any way to determine—short
of innumerable mini-trials—whether gas produced from
such wells was actually processed any given month.
Even assuming some doubts remained about the
scope or importance of the circuit split when this Court
denied the petitions in Rikos, Mullins, and ConAgra,
they are long gone now. In case after case decided since,
district courts that apply a more stringent approach to
ascertainability have denied class certification because the
plaintiffs had not proposed a reliable, feasible method for

23
identifying absent class members. See supra Part II.B.
But in case after case where courts do not impose such a
requirement, virtually identical class actions have been
certified. Id.
This has to stop. There is no question that class
certification matters, that courts disagree about
whether a class of impossible-to-identify plaintiffs can be
certified, and that this disagreement leads to conflicting
outcomes in indistinguishable cases. This case typifies
the disagreement and offers this Court an ideal vehicle
through which to end the confusion.
IV. The Decision Below Is Wrong.
A.

Rule 23 requires pre-certification proof that a
reliable, feasible method for identifying class
members exists.

“The class action is an exception to the usual rule that
litigation is conducted by and on behalf of the individual
named parties only.” Wal-Mart Stores, Inc. v. Dukes, 564
U.S. 338, 348 (2011) (internal quotation marks omitted).
For certain kinds of classes, that exception is justified. See
id. at 362 (discussing Federal Rules of Civil Procedure
23(b)(1) and 23(b)(2)). Damages classes under Rule
23(b)(3), however, represent the “most adventuresome”
departure from the usual rule. Amchem Prods., Inc. v.
Windsor, 521 U.S. 591, 614 (1997). Like all class actions,
they bind absent members to litigation in which they
played no part. But unlike classes under Rules 23(b)(1)
and 23(b)(2), they do so largely for “convenien[ce]” rather
than necessity, id. at 615, all while greatly magnifying the
defendant’s potential liability.

24
To keep this “adventurous” departure w ithin
acceptable bounds, damages plaintiffs must propose an
efficient, reliable means of identifying class members.
Otherwise, courts cannot meaningfully evaluate whether
the proposed class satisfies Rule 23’s other requirements.
See Byrd, 784 F.3d at 162. Nor can they meaningfully
protect absent plaintiffs, class defendants, or their
own dockets against the risks inherent in such cases.
For plaintiffs, the difficulty of identifying absent class
members makes it nearly impossible to provide notice,
leaving them bound by litigation they might want to
escape. See Marcus, 687 F.3d at 593.
For defendants, that difficulty subjects their victories
to potential collateral attack by unknown class members,
see Carrera, 727 F.3d at 310, makes it hard to identify
potentially applicable defenses against unknown class
members, and jeopardizes their right to raise every
available defense against every claim, see id. at 307. For
courts, it threatens the very harm Rule 23 was designed to
avoid: Cases predictably devolving into myriad mini-trials
when defendants challenge individual claims by raising
legitimate doubts about who really belongs in a class that
should never have been certified in the first place. See
Marcus, 687 F.3d at 593.
The Tenth Circuit blessed the district court’s order
brushing this all aside because petitioner can always move
to decertify or redefine the class later if the class proves
unworkable. The Tenth Circuit’s “we’ll deal with it later”
approach ignores acertainability’s interconnectedness
with Rule 23’s prescribed demands. Among other things,
those seeking to pursue damages claims as a class must
prove that the representative parties’ claims are “typical”

25
of the class’s as a whole, that the representative parties
will “fairly and adequately protect” the class’s interests,
that there are “questions of law or fact common to the
class,” that those common questions will “predominate
over” individualized ones, and that classwide adjudication
“is superior to” other methods of resolving the dispute,
considering “the likely difficulties in managing a class
action.” App. 34a-35a. Additionally, any class certification
order “must define the class,” id. at 36a, and upon
certification the court must “direct to class members the
best notice that is practicable under the circumstances,
including individual notice to all members who can be
identified through reasonable efforts,” ibid.
Any “rigorous analysis” of these requirements before
certification must ensure that some administratively
feasible method of identifying class members exists.
Comcast Corp. v. Behrend, 133 S. Ct. 1426, 1432 (2013).
Otherwise, it is impossible to tell whether the common
claims are typical or whether the named representative is
truly representative when the members themselves cannot
be identified. Nor can the court be sure that hard-toidentify class members will receive reasonable notice. Most
importantly, any conclusion regarding whether classwide
issues predominate or that classwide adjudication will be
superior will, of necessity, be speculative at best when
every single claimant may have to be cross-examined
about to determine whether he or she belongs in the
class. Judicial scrutiny of ascertainability at the classcertification addresses each of these problems.

26
B. The Tenth Circuit abused its discretion in
denying permission to appeal.
This Court has jurisdiction to grant a writ of certiorari
in “any civil or criminal case … in the court of appeals.” 28
U.S.C. § 1254. This statutory grant of jurisdiction extends
to decisions by courts of appeal denying permission to
appeal an interlocutory or non-final order. See Dart, 135
S. Ct. at 81; Hohn v, 524 U.S. at 241.
As the Court made clear in Dart, certiorari review
can encompass the underlying district court order where,
as here, the decision of the court of appeals reveals that
the denial of permission to appeal was based on a “legally
erroneous premise.” 135 S. Ct. at 555. As the basis for
its refusal to permit Apache’s appeal, the Tenth Circuit
cited the petition’s failure to present any unsettled
question of law important to class actions generally. But
because Apache’s petition expressly raised one of the
most important issues dividing the circuits in the Rule
23 context, the Tenth Circuit’s refusal to grant review
was an abuse of discretion. See Republic of Philippines
v. Pimentel, 553 U.S. 851, 864 (2008) (stating that “a
court ‘by definition abuses its discretion when it makes an
error of law’” and reversing where the court of appeals’
opinion was legally erroneous (quoting Koon v. United
States, 518 U.S. 81, 99-100 (1996))). While circuit courts
enjoy broad discretion when deciding whether to permit
an interlocutory appeal from a certification decision,
their exercise of that discretion must “turn[ ] on more
than what [the judges] had for breakfast.” In re Rail
Freight Fuel Surcharge Antitrust Litig., 725 F.3d at 250
(“Discretionary does not mean arbitrary”.)

27
The Tenth Circuit’s own case law “weighed heavily
in favor of accepting [Apache’s] appeal.” Dart, 135 S. Ct.
at 556. That the Tenth Circuit rejected Apache’s petition
strongly suggests it either thought the district court got
it right, or thought that the question presented was not
important or novel. Ibid. Either way, refusal to grant
permission to appeal was an abuse of discretion. See id. at
555 (“A court ‘would necessarily abuse its discretion if it
based its ruling on an erroneous view of the law.’”) (quoting
Cooter & Gell v. Hartmarx Corp., 496 U.S. 384,405 (1990)).
The practical effect of the Tenth Circuit’s denial of
permission to appeal is to permit district courts to certify
classes while deferring the issue of ascertainability for
potential, future consideration under a yet-unannounced
standard. Dart, 135 S. Ct. at 556-57 (Tenth Circuit’s order
denying permission to appeal “establish[es] the law not
simply for this case, but for future [ones]” as well). After
all, in the wake of its refusal to consider Apache’s appeal
in this case, no defendant is likely to expend resources
arguing that a would-be class plaintiff’s failure to identify
a reliable and administratively feasible method for
ascertaining class members thwarts class-certification.
Ibid.
The Tenth Circuit’s denial of permission to appeal
based on the supposed lack of any question presenting
an unsettled issue of importance to class actions turns
Rule 23(f) on its head. This Court created Rule 23(f) to
facilitate the resolution of unsettled questions of law under
Rule 23. If the Tenth Circuit’s order in this case is allowed
to stand, however, that Rule will become a tool for courts
of appeals to insulate their own substantive decisions on
even the most important and controversial questions of

28
law under Rule 23 from review simply by embedding them
in an unpublished order denying permission to appeal.
The need for this Court’s immediate, supervisory
review is further underscored by the fact that the
court of appeals took a procedural short-cut: Rather
than providing the full airing that granting the Rule
23(f) petition would have afforded the parties and the court
of appeals, the court chose to use the vehicle of a Rule
23(f) denial order to issue what is effectively a substantive
ruling blessing the district court’s decision to certify a
class without requiring respondent to establish a reliable
and administratively feasible method for identifying class
members.
Petitioner was deprived of the opportunity to fully
brief the fundamental, still-unresolved class-certification
issues presented by the district court’s class-certification
order. Instead, it had only the 14 days provided by Rule
23(f) to cram its arguments into the 20-page petition for
permission to appeal allowed by Federal Rule of Appellate
Procedure 5(a). Petitioner was not even permitted to
present oral argument on the petition. Those highly
abridged appellate proceedings make this Court’s review
exceptionally important in this case. See Sup. Ct. R. 10(a),
(c).

29
CONCLUSION
The Court should grant the petition and issue a writ
of certiorari to the United States Court of Appeals for
the Tenth Circuit in Apache Corp. v. Bigie Lee Rhea, No.
19-602.
Respectfully submitted,
Timothy S. McConn
Reagan W. Simpson
Shane Pennington
Yetter Coleman LLP
811 Main Street, Suite 4100
Houston, Texas 77002
(713) 632-8000

Michael L. Beatty
Counsel of Record
Beatty & Wozniak
216 16th Street, Suite 1100
Denver, CO 80202
(303) 407-4499
mbeatty@bwenergylaw.com

Mark Banner
Hall, Estill, Hardwick,
Gable, Golden & Nelson
320 South Boston Avenue,
Suite 200
Tulsa, OK 74103-3706
(918) 594-0400
Counsel for Petitioner

APPENDIX

1a
A THE UNITED
APPENDIX A —Appendix
ORDER OF
STATES COURT OF APPEALS FOR THE
TENTH CIRCUIT, FILED JULY 16, 2019
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 19-602
(D.C. No. 6:14-CV-00433-JH)
(E.D. Okla.)
APACHE CORPORATION,
Petitioner,
v.
BIGIE LEE RHEA,
Respondent.
ORDER
Before LUCERO, PHILLIPS, and CARSON, Circuit
Judges.
This matter comes on for consideration of the
Petitioner Apache Corporation’s Petition for Permission
to Appeal Class Certification Order, the Respondent’s
Answer in Opposition, Apache’s Motion for Leave to
File Reply Brief in Support of Petition for Permission
to Appeal, and the Respondent’s Response in Opposition.
See Fed. R. App. P. 5; Fed. R. Civ. P. 23(f).

2a
Appendix A
The decision whether to grant the petition is purely
discretionary. See Fed. R. Civ. P. 23(f); Vallario v.
Vandehey, 554 F.3d 1259, 1262 (10th Cir. 2009) (this
discretion is “‘unfettered and akin to the discretion
exercised by the Supreme Court in acting on a petition
for certiorari.’”) (quoting Fed. R. Civ. P. 23(f) advisory
committee’s note).
We have carefully considered the district court’s
written order granting class certification, the parties’
submissions, and the applicable legal authority. We
conclude that the order does not sound the “death knell” of
the claims, that the district court order does not constitute
manifest error, and it does not present “an unresolved issue
of law relating to class actions that is likely to evade endof-case-review which is significant to the case at hand as
well as to class action generally.” Id. at 1263. Accordingly,
this matter is not appropriate for immediate review.
The petition for permission to appeal is denied. The
motion for file a reply brief is granted.
Entered for the Court
ELISABETH A. SHUMAKER, Clerk
/s/					
by: Ellen Rich Reiter
Counsel to the Clerk

3a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF OKLAHOMA, FILED MAY 3, 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF OKLAHOMA
CASE NO. CIV-14-433-JH
BIGIE LEE RHEA,
Plaintiff,
v.
APACHE CORPORATION,
Defendant.
ORDER
On February 15, 2019, the court granted plaintiff’s
motion for class certification subject to modification of the
class definition. Plaintiff has now filed a modified class
definition to which defendant has objected. Defendant has
also filed a motion for reconsideration of the court’s order
granting certification. Both matters are fully briefed and
ready for resolution.
a. The class definition issue
The court’s prior order stated that plaintiff’s proposed
definition was overbroad because it would include some
wells where “there was no opportunity for processing

4a
Appendix B
sufficient to be a basis for the lost royalty nature of
plaintiff’s claim.” Doc. # 294, p. 11. The court concluded
that the class definition should be limited to “only those
wells whose gas was actually processed.” Id.
Plaintiff has filed the following modified class
definition:
All non-excluded persons or entities with royalty
interests in wells upstream of a processing
plant with a Btu content of 1050 or higher
and where Apache Corporation marketed gas
from the well pursuant to the terms of the
January 1, 1998 contracts between Transok,
Inc. and Apache Corporation and/or the July
1, 2011 contract between Enogex Gathering &
Processing LLC and Apache Corporation on or
after January 1, 2000.
Plaintiff contends that the phrase “in wells upstream of
a processing plant” addresses the court’s concern about
the overbroad definition.
Defendant has objected to the modified definition,
arguing that plaintiff has not addressed the court’s order
to restrict the definition to “only those wells whose gas
was actually processed.” It contends that the proposed
definition still leads to an unascertainable, overbroad class
because the manner in which natural gas collection and
processing systems operate precludes a definitive finding
that, based on any given well’s location relative to the
processing plant, the well’s gas was actually processed.

5a
Appendix B
According to defendant, issues such as plant capacity,
blending, and bypass of gas must be considered when
evaluating whether any given well’s gas was processed.
The court acknowledges the tension between the
phrases “no opportunity for processing” and “wells whose
gas was actually processed” used in the prior order, as
they do not necessarily describe the same thing. However,
based on the present submissions, the court concludes
that the potential circumstance of an upstream well,
otherwise within the class, not having its gas processed
is sufficiently remote and speculative that it should not
bar the certification of the proposed class. The nature of
gas collection systems makes it difficult to impossible to
distinguish one well’s gas from another once both wells
are connected to a central connection line. However, as
to wells of the type involved here which are above the
processing plant, it appears entirely likely that their gas
would be processed.
If, after further discovery, there is evidence suggesting
that a significant portion of gas produced from wells
upstream of processing plants was not processed,
then a motion to decertify or redefine the class may be
appropriate. On the present submissions, however, the
court concludes that possibility is sufficiently speculative
that it does not render the proposed class definition
problematic. It appears from defendant’s current pay
practices that the concern is more theoretical than real.
Plaintiff’s modified class definition adequately addresses
the court’s concerns raised in the prior order — that the
class be restricted to wells whose gas was processed for
the extraction of NGLs.

6a
Appendix B
Accordingly, the court adopts the following definition
for the proposed class:
All non-excluded persons or entities with royalty
interests in wells upstream of a processing
plant with a Btu content of 1050 or higher
and where Apache Corporation marketed gas
from the well pursuant to the terms of the
January 1, 1998 contracts between Transok,
Inc. and Apache Corporation and/or the July
1, 2011 contract between Enogex Gathering &
Processing LLC and Apache Corporation on or
after January 1, 2000.
Fuel Gas Subclass: All non-excluded persons
or entities included in the class who are also
entitled to share in royalty proceeds payable
under any lease that contains an express
provision stating that royalty will be paid on
gas used off lease premises (a Fuel Gas Clause)
as set forth in Column G of Exhibit 1.
The persons excluded from the Class and Fuel
Gas Subclass are: (1) agencies, departments, or
instruments of the United States of America
and the State of Oklahoma; (2) publicly
traded oil and gas exploration companies and
their affiliated; (3) persons or entities that
Plaintiff’s counsel is, or may be, prohibited from
representing under Rule 1.7 of the Oklahoma
Rules of Professional Conduct; and (4) officers
of the Court involved in this action.

7a
Appendix B
b. The motion to reconsider
Defendant has also filed a motion to reconsider the
prior class certification order. Defendant argues, again,
that Mittelstaedt v. Santa Fe Minerals, Inc., 954 P.2d 1203
(Okla. 1998), precludes the certification of the class in this
action because “post-production costs must be examined
on an individual basis.” In defendant’s words: “The
Court’s determination that Mittelstaedt applies is fatal to
class certification.” Doc. # 295, p. 6. The court concludes
otherwise. The prior order addressed Mittelstaedt and
the potential certification of such royalty class actions in
Oklahoma. This and other arguments of defendant are
essentially restatements of the same matters previously
considered by the court, and the court is unpersuaded
that its initial determination was in error.
CONCLUSION
For the reasons stated, the class definition set out
above is adopted. Defendant’s Motion for Reconsideration
[Doc. # 295] is DENIED.
The parties are directed to confer and submit,
within 14 days, a proposed scheduling order for further
proceedings in this case.
IT IS SO ORDERED.
Dated this 3rd day of May, 2019.

8a
Appendix B
/s/
JOE HEATON
UNITED STATES DISTRICT
JUDGE

9a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF OKLAHOMA
FILED FEBRUARY 15, 2019
NO. CIV-14-0433-JH
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF OKLAHOMA
BIGIE LEE RHEA,
Plaintiff,
v.
APACHE CORPORATION,
Defendant.
ORDER
Plaintiff Bigie Lee Rhea filed this putative class
action on behalf of himself and other royalty owners
with interests in Oklahoma wells operated by, or the
production from which was sold by, defendant Apache
Corporation (“Apache”). He seeks to recover for the alleged
underpayment of royalties by defendant, contending that
Apache underpaid royalties due to its failure to obtain the
best price available for the gas it sold. More specifically,
he contends that defendant breached its implied duty to
market the gas and obtain the best price available by (1)
marketing the gas under a “keep whole” contract which did
not capture the value of the natural gas liquids (“NGLs”)

10a
Appendix C
included in the production, and (2) paying excessive fees
to the midstream processor even after the keep whole
contract was modified to capture the value of the NGL’s.
He also asserts that defendant failed to pay royalty on
fuel gas used by the midstream processor in performing
midstream services, contrary to explicit lease provisions
included in most, but not all, of the affected leases. These
contentions are the underlying basis for claims for breach
of contract, tortious breach of contract, fraud (actual and
constructive) and deceit, and for an accounting.
The plaintiff has moved for class certification, for
appointment of himself as class representative, and for
appointment of class counsel. The court held a hearing
on the motion on August 9, 2018. After consideration of
the parties’ submissions at the hearing and otherwise,
the court concludes the motions should be granted as
stated here.
BACKGROUND
Plaintiff’s claims are based on defendant’s alleged
practices stretching over many years. The parties’
submissions indicate that, on January 1, 1998, defendant
entered into two related contracts (the “1998 Contracts”)
involving gas sales from Oklahoma wells. The Gathering
and Compression Agreement covered gas wells connected
to the NAGS, WAGGS, East Caddo, West Caddo,
Mistletoe, Hydro, and Limestone pipeline systems1
1. At the time the agreement was executed, no wells were
connected to the Mistletoe, Hydro, or Limestone systems.

11a
Appendix C
owned or operated by Transok, Inc. 2 Doc. #137-4. 3 The
Dedicated Interruptible Service Agreement covered gas
wells connected to the Traditional and Anadarko pipeline
systems owned by Transok. Doc. # 161-17. The 1998
Contracts (1) were due to expire on December 31, 2012;
(2) dedicated all future wells drilled or recompleted within
five miles of one of the pipeline systems to the relevant
agreement; (3) required Transok to deliver “thermally
equivalent” volumes of gas for the account of defendant
after NGLs and other substances were removed during
processing; (4) defined all relevant terms and conditions
in substantially the same language; and (5) reserved the
right to defendant to “process all of its gas and retain all
of the oil and liquid hydrocarbons.” Doc. Nos. 137-4, p. 10;
161-17, p. 9. Defendant also paid Transok gathering and
compression fees under the agreements.4
The 1998 Contracts are considered “keep-whole”
agreements whereby the well-operator permits the
midstream services provider to process the gas to remove
NGLs and retain those liquids for its own use or sale.
2. Transok was purchased by Enogex LLC in 1999 which
assumed all Transok rights under the agreements. Enogex later
became Enable Midstream Partners LP (“Enable”).
3. References to filings with this court are to the CM/ECF
document and page number.
4. Defendant argues the petition addresses only the Gathering
and Compression Agreement. However, the contract reference in
the petition is to language appearing in both contracts. The court
concludes plaintiff has sufficiently raised issues as to both contracts,
and there is no apparent prejudice to defendant from proceeding on
that assumption.

12a
Appendix C
This processing decreases the energy content of the gas
relative to the raw gas. The operator is kept “whole” as to
the energy content of the gas produced when a thermally
equivalent amount of residue gas — less the amount of
gas used as fuel to power operations during the gathering,
compressing, and processing stages of the operations —
is returned to the operator after processing. Apache’s
royalty payments were based on the value of the returned
residue gas. Doc. 137-5, p. 21.
Plaintiff contends that the keep-whole arrangement
denies royalty owners the best price available for the
gas that is sold, because the value of the NGLs removed
exceeds the value of the thermally equivalent residue gas
that is returned. The alleged difference between the value
of the NGL’s removed and the value of the replacement
residue gas is referred to as the “NGL uplift.” According
to plaintiff, the loss is particularly significant for royalty
owners in the proposed class of “NGL-rich” gas wells
because a significant amount of NGLs could be removed
during processing. Plaintiff also contends royalty owners
are disadvantaged because of the 15-year term of the 1998
Contracts, the dedication of future wells to the Contracts,
and the volatility of pricing for NGLs. Doc. # 136, pp. 9-14.
Defendant argues that the value of NGLs was transferred
to the midstream services provider “for processing and
other services,” and that the contracts were reasonable
based on the circumstances existing at the time. Doc. #
161, p. 13.
Plaintiff’s fraud claims are based on allegations
that proposed class members received uniform royalty

13a
Appendix C
check stubs with false and/or misleading statements.
Plaintiff specifically alleges that the check stub failed to
comply with Oklahoma law and did not provide required
information that would have permitted proposed class
members to identify that the gas produced was NGL-rich
gas. Doc. # 136, p. 15.
On July 1, 2011, Apache and Enogex Gathering and
Processing entered into a Gas Gathering & Processing
Agreement (the “2011 Contract”) which replaced the
1998 agreements. Under the 2011 Contract, defendant
received value for the NGLs and paid royalties on that
value. Plaintiff alleges, however, that the initial six months
of fees agreed to in the 2011 Contract were unreasonably
high and improperly diminished the amount of royalties
paid to the class. Id. at 14-15.
Plaintiff’s submissions indicate over 500 wells meet
the proposed class definition and that at least 5,679 leases
relate to those wells. Id. at 18-19. Plaintiff has presented
a lease chart for the leases involved in this case, Doc. #
135-1, and argues that none of the leases negate the duty
to pay the best price available for the gas. Doc. # 136,
p. 21. He also contends that 4,159 leases contain express
language stating royalty will be paid on all constituents of
gas produced and only 538 of the leases contain language
expressly allowing for the deductions of gathering,
compression, dehydration, treating, and/or processing
fees. Doc. # 138-10, pp. 5-6. Finally, plaintiff alleges that
4,824 of the 5,679 leases contain a “Fuel Gas Clause”
which expressly mandates that defendant pay royalty on
the value of gas used to power gathering, compressing,

14a
Appendix C
and processing equipment off the lease premises (“fuel
gas”). Doc. 136, p. 19. Plaintiff claims that Apache has
never paid royalties based on the fuel gas used. Id. at 23.
THE PROPOSED CLASS
Plaintiff seeks to represent the following class and
subclass in this action:
All non-excluded persons or entities with
royalty interests in wells with a Btu content
of 1050 or higher where Apache Corporation
marketed gas from the well pursuant to the
terms of the January 1, 1998 contracts between
Transok, Inc. and Apache Corporation and/
or the July 1, 2011 contract between Enogex
Gathering & Processing LLC and Apache
Corporation on or after January 1, 2000.
Fuel Gas Subclass: All non-excluded persons
or entities entitled to share in royalty proceeds
payable under any lease that contains an
express provision stating that royalty will be
paid on gas used off the lease premises (a Fuel
Gas Clause) as set forth in Column G of Exhibit
1. 5
5. Apache objects to the proposed classes on the basis they are
different from those proposed in the petition. The court concludes
the Fuel Gas claims are within the scope of the original petition
and, in any event, consideration of the modified definitions does not
prejudice the defendant.

15a
Appendix C
The persons excluded from the Class and Fuel
Gas Subclass are: (1) agencies, departments or
instruments of the United States of America
and the State of Oklahoma; (2) publicly
traded oil and gas exploration companies and
their affiliates; (3) persons or entities that
Plaintiff’s counsel is, or may be prohibited from
representing under Rule 1.7 of the Oklahoma
Rules of Professional Conduct; and (4) officers
of the Court involved in this action.
Doc. # 135, p 4. Plaintiff asserts defendant is liable to the
class for failing to obtain the best price available from
January 1, 2000 to June 30, 2011, based on the impact
of the NGL Uplift. He contends it failed to obtain the
best price available from July 1, 2011 to January 1, 2012
due to paying excessive processing fees. He alleges that
defendant failed to pay royalties attributable to the use
of fuel gas from January 1, 2000 to the present.
ANALYSIS
“The class action is an exception to the usual rule that
litigation is conducted by and on behalf of the individual
named parties only.” Wal-Mart Stores, Inc. v. Dukes, 564
U.S. 338, 348, 131 S. Ct. 2541, 180 L. Ed. 2d 374 (2011)
(quotations and citation omitted).
Rule 23 sets out the requirements for class
certification. Rule 23(a) requires the party
seeking certification to demonstrate that: (1)
the class is so numerous that joinder of all

16a
Appendix C
members is impracticable (numerosity); (2)
there is a question of law or fact common to the
class (commonality); (3) the claims or defenses
of the representative parties are typical of the
claims or defenses of the class (typicality); and
(4) the representative parties will fairly and
adequately protect the interests of the class
(adequacy).
Wallace B. Roderick Revocable Living Trust v. XTO
Energy, Inc., 725 F.3d 1213, 1217 (10th Cir. 2013). The class
must also satisfy one of the three requirements listed in
Rule 23(b). Id. In this case, plaintiff relies on Rule 23(b)
(3), which requires the court to find that “questions of
law or fact common to class members predominate over
any questions affecting only individual members, and
that a class action is superior to other available methods
for fairly and efficiently adjudicating the controversy.”
Fed.R.Civ.P. 23(b)(3).
RULE 23(A) REQUIREMENTS
Rule 23 sets forth more than a pleading standard. WalMart, 564 U.S. at 350. “A party seeking class certification
must affirmatively demonstrate his compliance with
the Rule — that is, he must be prepared to prove that
there are in fact sufficiently numerous parties, common
questions of law or fact, etc.” Id. The court “has an
independent obligation to conduct a ‘rigorous analysis’
before concluding that Rule 23’s requirements have been
satisfied.” Roderick, 725 F.3d at 1217 (quoting Wal-Mart
564 U.S. at 351). “Granting or denying class certification

17a
Appendix C
is a highly fact-intensive matter of practicality.” Monreal
v. Potter, 367 F.3d 1224, 1238 (10th Cir. 2004) (citations
omitted). These requirements are addressed below.
a. Numerosity
Numerosity requires the plaintiff to show that the
“class is so numerous that joinder of all members is
impracticable.” Fed.R.Civ.P. 23(a)(1). The number of
royalty owners who are potential class members is not
precisely stated in the parties’ submissions but, given the
number of wells within the class definition and the number
of leases involved, it is clear that several thousand persons
— likely in excess of 5000 — qualify. Plaintiff’s showing
amply satisfies the numerosity requirement and plaintiff
does not seriously challenge that conclusion.
b. Commonality
Plaintiff must establish that there are “questions
of law or fact common to the class.” Rule 23(a)(2). To
satisfy the element of commonality, the plaintiff need
only demonstrate there is a single question of law or
fact common to the entire class. Wal-Mart, 564 U.S.
at 359. But “the mere raising of a common question
does not automatically satisfy Rule 23(a)’s commonality
requirement.” Roderick, 752 F.3d at 1218. “Rather, the
common contention ‘must be of such a nature that it is
capable of classwide resolution — which means that
determination of its truth or falsity will resolve an issue
that is central to the validity of each one of the claims in
one stroke.’“ Id. (quoting Wal-Mart, 564 U.S. at 350).

18a
Appendix C
Plaintiff contends that common questions to be
resolved include at least the following: (1) whether
defendant owed a uniform duty to pay royalties on the
best price available for the gas; (2) whether defendant
used a uniform royalty payment methodology; (3) whether
defendant’s royalty payment methodology breached
the duty to pay royalties on the best price available; (4)
whether subclass leases contained an express lease clause
that required the payment of royalty on fuel gas; (5)
whether defendant breached the fuel gas clause; and (6)
whether an elevated fee initially charged under the 2011
contract breached duties to the class.
Defendant argues that the commonality question as to
this case, or this type of case, has already been answered
by the undersigned judge in Foster v. Apache Corp., 285
F.R.D. 632 (W.D. Okla. 2012), and the parties have devoted
considerable attention to whether this case is, or is not,
like Foster. In Foster, the plaintiff sought to represent a
class of over 10,000 royalty owners in over 1200 wells. The
case involved gas sales under thirty different marketing
arrangements and to over two dozen purchasers. Id.
at 636. The court concluded that plaintiff had failed to
establish the commonality element because the potential
variations in lease languages negated plaintiff’s argument
that common royalty payment practices, points of
marketability, and fuel gas clauses were all common
questions of fact or law. Id. at 640-44.
While there is no doubt some overlap between the
claims and circumstances in Foster and those involved
here, the court concludes there are differences which

19a
Appendix C
suggest a different result. Unlike the circumstances in
Foster, where the operative lease language varied from
lease to lease, 285 F.R.D. at 642, plaintiff’s evidence here
is that none of the leases involved include language which
would negate the implied obligation to obtain the best price
available. That circumstance lends itself to a collective
resolution of the question plaintiff seeks to focus on:
whether defendant systematically underpaid royalties due
to its failure to obtain full value for the NGL’s which were
part of these well’s gas production. And, unlike in Foster,
that evidence is based on a systematic evaluation of the
individual leases. Thus, whether defendant had a uniform
duty to pay royalties on the best price available, used a
uniform royalty payment method to pay those royalties,
and, in doing so, breached the duty to pay royalties on
the best price available are all questions common to the
proposed class.
Plaintiff also alleges that whether subclass leases
contained an express lease clause that required the
payment of royalty on fuel gas is a question common to
the subclass. The lease chart provided indicates that over
4800 of the leases examined obligate defendant to pay the
lessors for gas used off premises or in the manufacture of
products permitting the court to uniformly interpret the
clauses. Such a common analysis cannot be performed,
according to defendant, because each clause in each lease
must be construed individually and take into consideration
the custom and practice in the industry. A review of
applicable fuel gas language in the lease chart indicates
that there is extensive uniformity between leases. As
such, whether the subclass leases require payment of

20a
Appendix C
royalty on fuel gas is a question capable of answer across
the subclass.
Finally, the 2011 Contract contains an express
provision that varies the processing fee to be charged
over the first two years of the agreement. Doc. # 162-1,
p. 11. For the first six months of the contract the fee was
set at eighty cents ($0.80) per MMBtu. For the next year
the fee was thirty cents ($0.30) per MMBtu. After that
a discount of nineteen cents ($0.19) would apply to the
thirty-cent fee for the first 175 TBtu of gas processed.
Therefore, whether the eighty-cent processing fee charged
to all proposed class members for the first six months of
the 2011 Contract is excessive is a question common to
the class. Evidence common to all class members would
demonstrate if the elevated fee was required to offset
some required expenditure by the midstream processor
or whether the fee served some other purpose that did
not transfer benefits to the class.
There is one aspect of the circumstances which gives
the court pause in determining whether the common
questions are appropriate for class-wide resolution. That
is defendant’s evidence that not all gas produced from
the proposed class wells was processed to extract NGLs.
Some of the wells were upstream of a processing plant,
and their production was processed to remove the NGLs.
Others were located downstream of the processing plant,
with the result that the gas was either not processed or
was somehow rerouted in some other way. As a result,
plaintiff’s proposed class of “persons or entities with
royalty interests in wells with a Btu content of 1050

21a
Appendix C
or higher” is overly broad because, as to at least some
of those “rich gas” wells, there was no opportunity for
processing sufficient to be a basis for the lost royalty
nature of plaintiff’s claim. However, the court concludes
the issue does not bar certification altogether, but rather
warrants a modification of the proposed class definition.
Specifically, the court concludes the class description
should be modified to include only those wells whose gas
was actually processed.
With modification of the definition as indicated, the
court concludes plaintiff has made the necessary showing
as to the existence of common questions appropriate for
classwide resolution that class members have “suffered
the same injury.” Wal-Mart, 564 U.S. at 350.
c. Typicality and Adequacy
A class action may only be certified when “the claims
or defenses of the representative parties are typical of
the claims or defenses of the class.” Fed.R.Civ.P. 23(a)
(3). Commonality and typicality “tend to merge” and
“serve as guideposts for determining whether under the
particular circumstances maintenance of a class action is
economical and whether the named plaintiff’s claim and
the class claims are so interrelated that the interests of
the class members will be fairly and adequately protected
in their absence.” Walmart, 564 U.S. at 349 n.5. Both
requirements “also tend to merge with the adequacy-ofrepresentation requirement.” Id.
Defendant argues that plaintiff’s claims are not typical
of those of the class for a variety of reasons. It contends

22a
Appendix C
plaintiff is not typical because his lease is a “‘market value’
‘at the wellhead’ lease [which have] been repeatedly held to
require royalties to be paid on the condition of the gas at
the wellhead before processing.” Doc. # 161, p. 40. But this
argument does not negate plaintiff’s primary argument
that the value of the gas at the wellhead would include the
value of the NGLs contained therein.
Defendant also argues that plaintiff was a class
member in a prior class action against Apache, and that
the settlement in that case released all claims that were
or could have been raised related to the 1998 Contracts.
But by its terms, the settlement of that action resolved
claims “for the period of May 25, 1989 to December 31,
1999.” Doc. # 161-5, p. 3. Here, plaintiff has proposed a
class period beginning January 1, 2000. Given the explicit
time limitation on the scope of the prior settlement, there
appears to be no plausible basis for suggesting that
plaintiff would be precluded from asserting claims which
arose later.
Defendant further contends that plaintiff was
paid differently from other class members because
changes in his lease granted him royalty free from postproduction costs and fees. But defendant’s representative
acknowledged that prior to 2012, no system was in place
to identify royalty owners whose leases granted them
royalties free from such costs. Doc. # 138-10, pp. 5-7. Thus,
such fees were deducted from all proposed class members.
Defendant has failed to establish that defendant was not
typical of other class members with respect to defendant’s
royalty payment methodologies.

23a
Appendix C
Defendant also argues that plaintiff lacks standing
to bring this action on behalf of forced pooled royalty
owners because the implied duty to market with respect
to the deduction of post-production costs does not apply
to forced pooled royalty owners. See Panola Ind. Sch.
Dist. No. 4 v. Unit Petroleum Co., 2012 OK CIV APP 94,
287 P.3d 1033, 1035-36 (Okla. Civ. App. 2012). If the court
makes this legal determination, however, the forced pool
royalty owners can simply be excluded from the class.
This argument does not dictate the plaintiff is atypical or
an inadequate representative for the class as proposed.
Defendant asserts that plaintiff is also not an adequate
class representative because a potential conflict exists
between the class and named plaintiff. Representative
parties must “fairly and adequately protect the interests
of the class.” Fed.R.Civ.P. 23(a)(4). Defendant argues
that the requested accounting may result in some class
members owing defendant money, while defendant owes
money to plaintiff and others. While that theoretical
possibility always exists with an accounting, defendant’s
concern here is essentially speculation. Given the nature of
plaintiff’s claim, coupled with the evidence of the uniform
process being employed by defendant in how it paid
royalties, the court concludes the theoretical potential for
conflict, without more, is insufficient to disqualify plaintiff
as an adequate class representative. “The representative
does not need to be in perfect alignment and agreement
with all class members.” Steven S. Gensler, Federal Rules
of Civil Procedure: Rules and Commentary, Rule 23
Commentary (2018). Certification is only inappropriate
“if there are substantial or fundamental conflicts.” Id.

24a
Appendix C
Finally, defendant also argues that some class
members may want to tailor their own liability and
damages arguments creating conflict in the class. That
may well be true and, if so, individual class members may
separately pursue their own claims by opting out of the
class. Such arguments, however, fail to demonstrate that
plaintiff would be an inadequate class representative.
The court concludes that Mr. Rhea’s claims and
defenses are typical of the proposed class and that he
would be an adequate class representative.6
Accordingly, the court concludes that the elements of
Rule 23(a) have been met.
RULE 23(B): PREDOMINANCE
AND SUPERIORITY
The next question is whether plaintiff has met his
burden under Rule 23(b) — specifically whether he can
“show that common questions subject to generalized,
classwide proof predominate over individual questions.
‘The Rule 23(b)(3) predominance inquiry tests whether
proposed classes are sufficiently cohesive to warrant
adjudication by representation.’” CGC Holding Co., LLC v.
Broad & Cassel, 773 F.3d 1076, 1087 (10th Cir. 2014) (quoting
6. Defendant has not challenged the adequacy of proposed
class counsel. The court concludes that proposed class counsel have
demonstrated adequate investigation of the claims presented, have
extensive experience handling similar class claims, and will fairly
and adequately represent the interests of the class. See Fed.R.Civ.P.
23(g).

25a
Appendix C
Amchem Prods., Inc. v. Windsor, 521 U.S. 591, 622-23, 117
S. Ct. 2231, 138 L. Ed. 2d 689 (1997)). The court must
determine “whether the common, aggregation-enabling,
issues in the case are more prevalent or important than
the non-common, aggregation-defeating, individual issues.
Id. (quotations and citation omitted). Further, “Rule 23(b)
(3)’s predominance criterion is ‘far more demanding’ than
Rule 23(a)’s commonality requirement.” Roderick, 725
F.3d at 1220 (quoting Amchem, 521 U.S. at 623-24).
Defendant contends that individual questions
predominate because of its “varying obligations[,]
varying contracts[, and] other issues typically involved
in royalty underpayment cases.” Doc. # 161, p. 44. But
plaintiff argues that his claims here are not the claims
of a “typical” royalty underpayment case. Plaintiff
contends that he is not contesting when the gas becomes
marketable or whether the fees charged after the gas
becomes marketable enhanced the value of the gas,
were reasonable, or increased the royalty payments
proportionally. See Mittelstaedt v. Santa Fe Minerals,
Inc., 1998 OK 7, 954 P.2d 1203, 1208 (Okla. 1998). Rather,
the central thrust of plaintiff’s claim is that Mittelstaedt is
inapplicable in this case because he simply seeks royalties
to be paid on the value of the residue gas plus the value of
the NGLs removed during the processing — his proposed
“best price available.”
Plaintiff’s argument, however, appears to misconstrue
the keep whole nature of the 1998 Contracts entered into
between defendant and the midstream processor.

26a
Appendix C
A keep-whole processing contract is one in
which the processor agrees to process the
gas, keep the liquids for itself, and redeliver
the same Btu equivalent after processing. . . .
From the processor’s perspective, it enjoys all
the profit potential from extracting liquids,
but bears the entire pricing risk, since it must
make up, out of its own pocket, the volume of
gas necessary to keep the producer whole.
Robert L. Theriot, Midstream Update—Challenges in
Getting Production to Market, 59 Rocky Mt. Min. L.
Inst. 6-15 (2013); see also Duke Energy Nat. Gas Corp. v.
C.I.R., 172 F.3d 1255 (10th Cir. 1999) (Under a keep whole
contract, “the producer receives the [thermally equivalent]
volume of residue gas, while [the processor] receives the
proceeds from the NGLs that are separated in processing,
and sometimes a processing fee.”).
Therefore, on the face of the agreements at least,
the value of the NGLs appears to have been transferred
to the midstream processor as at least a partial fee for
processing. Accordingly, Mittelstaedt would apply in
this case. Such a determination, however, is not fatal to
class certification, despite defendant’s insistence. Under
Mittelstaedt, operators may charge post-production
costs to the lessor if (1) once the gas is in a marketable
condition; (2) the post-production costs enhanced the
value of the gas; (3) the costs are reasonable; and (4)
the costs increased royalties proportionally. 954 P.2d at
1208. Because plaintiff does not contest that the gas is
marketable at the wellhead, a significant Mittelstaedt
factor barring certification in other cases is not present

27a
Appendix C
here. See, e.g., Foster, 285 F.R.D. at 643 (“Thus, in light
of the various marketing arrangements and other factors
involved here, the point at which gas becomes marketable
is not a question which can be answered on a class-wide
basis, at least for a class a broad as this one.”).
Plaintiff’s case is intentionally centered on the NGL
uplift that he says royalties must be paid on. Plaintiff does
not challenge the other fees charged by the midstream
processor. Thus, only a single fee — the “NGL fee” — is at
issue in this case. This single fee, as alleged, is uniformly
charged against all putative class members. The question
then becomes whether evaluation of the value of the NGLs
as fees enhanced the value of the residue gas, whether
that was a reasonable fee, and whether royalties increased
in proportion to that value would still present common
questions subject to class-wide proof that predominate
over the individual questions that may arise. The court
concludes that the common questions do predominate for
the specific, limited class proposed by plaintiff in this
action.
Defining the putative class to include only wells with
a Btu content of 1050 or higher appears to limit the class
to wells with extractable levels of NGLs that have value
and which require processing prior to entry into the high
pressure intra and interstate pipelines. Therefore, all class
members arguably have been charged the fee represented
by the value of those NGLs, with higher NGL content wells
paying a higher fee and lower NGL content wells paying a
lower fee. Whether that fee was reasonable, whether the
extraction of those NGLs enhanced the value of the gas, and
whether that cost increased royalties proportionally would

28a
Appendix C
likewise be applicable to and proportional across the class
and subject to class-wide proof. Despite the fact that “[p]ostproduction costs must be examined on an individual basis
to determine if they are within the class of costs shared
by a royalty interest,” Mittelstaedt, 954 P.2d at 1208, the
court concludes that plaintiff’s proposed class definition,
as modified by this order, is narrow enough and creates
enough uniformity among class members to establish that
common questions predominate over the individual issues
that typically arise in a Mittelstaedt analysis.
Finally, plaintiff’s lease chart addresses defendant’s
concerns about variations in lease language, indicating
that the leases do not negate Oklahoma’s implied duty
to market and pay royalty on the best price available.
Defendant’s own representative confirms this conclusion.
Doc. # 138-9, p. 8. As in Naylor Farms, Inc. v. Chaparral
Energy, LLC, No. CIV-11-0634, 2017 U.S. Dist. LEXIS
6073, 2017 WL 187542 (W.D. Okla. 2017), the court
concludes that plaintiff’s analysis of most or all the leases
addresses the common concern in oil and gas royalty class
actions regarding the “remarkable variety of royalty
provisions.” Foster v. Merit Energy Co., 282 F.R.D. 541,
557 (W.D. Okla. 2012). Here, like Naylor Farms, the court
has confirmed that plaintiff’s lease chart demonstrates
that the leases in this case contain clauses creating the
implied duty to market as established in Mittelstaedt, TXO
Prod. Corp. v. State ex rel. Comm’rs of Land Office, 1994
OK 131, 903 P.2d 259 (Okla. 1994), and Wood v. TXO Prod.
Corp., 1992 OK 100, 854 P.2d 880 (Okla. 1992).7
7. Defendant does not challenge that plaintiff accurately
represents the language of the leases in the lease chart.

29a
Appendix C
Defendant also contends that many of the wells at
issue in this case are subject to prior litigation and that
its communications with various class members varied
raising individual questions that must be addressed. To the
extent that potential class members have released claims
in litigation with other processors, prior to Defendant
acquiring the interests in the wells, these individuals can
be excluded from the class by modifying the exclusion
clause of the class definition. And defendant has failed to
present any evidence of how varying communications to
class members would impact plaintiff’s basic claims for
failure to properly pay royalties, to pay royalties on fuel
gas, and that the elevated fee for the first six months of
the 2011 Contract improperly reduced royalties. In fact,
defendant has testified that all royalty owners receive the
same check-stub form and that it does not indicate whether
the gas produced included NGLs that were or could have
been extracted. Doc. # 137-5, p. 31.
Defendant also argues, however, that reliance cannot
be presumed for the fraud claim and that this is necessarily
an individual inquiry. However, “claims of fraud, deceit,
constructive fraud, and punitive damages are appropriate
for class certification” “where standardized written
misrepresentations have been made to class members,”
and “plaintiff’s reliance . . . is confined to a single state.”
Weber v. Mobil Oil Corp., 2010 OK 33, 243 P.3d 1, 5-7
(Okla. 2010). In this case, there is no evidence that
suggests any law other than Oklahoma law would govern
plaintiff’s fraud claims. Further, the claims are based on
the information presented to royalty owners on their check
stubs, a “standardized written” representation. In this

30a
Appendix C
instance, the court concludes that plaintiff has adequately
countered defendant’s individual reliance arguments
sufficient for the fraud claim to be certified.
The final significant argument against predominance
presented by defendant is that individual damage questions
would consume the proceedings. This argument focuses
on plaintiff’s original proposed class definition in his state
court petition which included in the class royalty owners
whose gas “was or could have been processed for removal
and sale of valuable natural gas liquids.” Doc. 3-1, p. 7.
By modifying the class definition to include only royalty
owners whose gas was processed for the removal of NGLs,
defendant’s concerns are significantly addressed. While
there are still damage calculation variables that must
be addressed, plaintiff has presented evidence that his
expert will be able to determine damages on a classwide
basis. See Doc. # 137-7. The court concludes that plaintiff’s
showing is sufficient to support a finding of predominance
despite the questions surrounding individual damage
calculations.
Finally, the court must also consider whether “a class
action is superior to other available methods for fairly and
efficiently adjudicating the controversy.” Fed.R.Civ.P.
23(b). The following factors, among others, are considered
in making that determination:
(A) the class members’ interests in individually
controlling the prosecution or defense of
separate actions;

31a
Appendix C
(B) the extent and nature of any litigation
concerning the controversy already begun by
or against class members;
(C) the desirability or undesirability of
concentrating the litigation of the claims in
the particular forum; and
(D) the likely difficulties in managing a class
action.
Id.
A class action is especially well suited to vindicate
“the rights of groups of people who individually would
be without effective strength to bring their opponents
into court at all.” Amchem, 521 U.S. at 617 (quotations
and citation omitted). This action is representative of
the instance when the amount of potential recovery is
dwarfed by the costs of bringing the suit. 8 For this reason
it is highly suited to proceed as a class action and there is
little likelihood that class members would be interested
in controlling the litigation through separate, individual
actions.
Defendant also argues that superiority is defeated
because plaintiff has failed to submit a trial plan to
establish priority, nor has plaintiff explained the exact
8. For example, in the prior class action in which plaintiff was
a class member and received an award for the underpayment of
royalties over a ten-year period, he received a settlement distribution
check of less than $20.00. Doc. # 161-9, p. 2.

32a
Appendix C
methodology that will be used to calculate damages. The
court concludes that plaintiff is not required to submit a
trial plan at this juncture to establish superiority. Further,
while the damage calculations may be challenging, given
plaintiff’s theory of recovery and expert report and
testimony, damages will not defeat a finding of superiority
at this time.9
Here, plaintiff has demonstrated that a class action
“would achieve [greater] economies of time, effort and
expense, and promote [enhanced] uniformity of decision as
to persons similarly situated” than would individual actions.
Fed.R.Civ.P. 23, Advisory Comm. Note (1966). The court
concludes the superiority element of Rule 23(b)(3) is satisfied.
CONCLUSION
Plaintiff’s motion for class certification and to appoint
a class representative and class counsel [Doc. # 135], with
the modifications to the class definition stated in this Order,
is GRANTED. Plaintiff is instructed to file a modified
definition reflecting these modifications within fourteen
(14) days. Defendant may file any objection to the modified
definition within seven (7) days thereafter.10 Plaintiff Bigie
9. Defendant also indirectly argued the second factor — the
extent and nature of other litigation — in its overlapping class
action arguments. As noted, the court concluded this concern can
be resolved excluding from the class individuals whose claims are
barred by prior litigation. Defendant, who removed the action to this
court, does not challenge the desirability of this forum.
10. Any objection should be limited to the question of whether
the modified definition is consistent with this order, rather than some
broader challenge.

33a
Appendix C
Lee Rhea is appointed as Class Representative, the law
firm of Nix, Patterson, & Roach, LLP is appointed as
Class Counsel, and the law firm of Whitten Burrage is
appointed as Liaison Counsel.
IT IS SO ORDERED.
Dated this 15th day of February, 2019.
/s/ Joe Heaton
JOE HEATON
UNITED STATES DISTRICT
JUDGE

34a
Appendix
D
APPENDIX D
— FEDERAL
RULES
OF CIVIL PROCEDURE RULE 23
FEDERAL RULES
OF CIVIL PROCEDURE RULE 23
RULE 23. CLASS ACTIONS
(a) Prerequisites. One or more members of a class may
sue or be sued as representative parties on behalf of all
members only if:
(1) the class is so numerous that joinder of all members
is impracticable;
(2) there are questions of law or fact common to the
class;
(3) the claims or defenses of the representative parties
are typical of the claims or defenses of the class; and
(4) the representative parties will fairly and adequately
protect the interests of the class.
(b) Types of Class Actions. A class action may be
maintained if Rule 23(a) is satisfied and if:
(1) prosecuting separate actions by or against
individual class members would create a risk of:
(A) inconsistent or varying adjudications with
respect to individual class members that would
establish incompatible standards of conduct for the
party opposing the class; or

35a
Appendix D
(B) adjudications with respect to individual class
members that, as a practical matter, would be
dispositive of the interests of the other members
not parties to the individual adjudications or would
substantially impair or impede their ability to
protect their interests;
(2) the party opposing the class has acted or refused to
act on grounds that apply generally to the class, so that
final injunctive relief or corresponding declaratory
relief is appropriate respecting the class as a whole; or
(3) the court finds that the questions of law or fact
common to class members predominate over any
questions affecting only individual members, and that
a class action is superior to other available methods for
fairly and efficiently adjudicating the controversy. The
matters pertinent to these findings include:
(A) the class members’ interests in individually
controlling the prosecution or defense of separate
actions;
(B) the extent and nature of any litigation
concerning the controversy already begun by or
against class members;
(C) the desirability or undesirability of concentrating
the litigation of the claims in the particular forum;
and
(D) the likely difficulties in managing a class action.

36a
Appendix D
(c) Certification Order; Notice to Class Members;
Judgment; Issues Classes; Subclasses.
(1) Certification Order.
(A) Time to Issue. At an early practicable time after
a person sues or is sued as a class representative,
the court must determine by order whether to
certify the action as a class action.
(B) Defining the Class; Appointing Class Counsel.
An order that certifies a class action must define
the class and the class claims, issues, or defenses,
and must appoint class counsel under Rule 23(g).
(C) Altering or Amending the Order. An order that
grants or denies class certification may be altered
or amended before final judgment.
(2) Notice.
(A) For (b)(1) or (b)(2) Classes. For any class
certified under Rule 23(b)(1) or (b)(2), the court
may direct appropriate notice to the class.
(B) For (b)(3) Classes. For any class certified under
Rule 23(b)(3)—or upon ordering notice under
Rule 23(e)(1) to a class proposed to be certified
for purposes of settlement under Rule 23(b)(3)—
the court must direct to class members the best
notice that is practicable under the circumstances,
including individual notice to all members who can

37a
Appendix D
be identified through reasonable effort. The notice
may be by one or more of the following: United
States mail, electronic means, or other appropriate
means. The notice must clearly and concisely state
in plain, easily understood language:
(i) the nature of the action;
(ii) the definition of the class certified;
(iii) the class claims, issues, or defenses;
(iv) that a class member may enter an appearance
through an attorney if the member so desires;
(v) that the court will exclude from the class
any member who requests exclusion;
(vi) the time and manner for requesting
exclusion; and
(vii) the binding effect of a class judgment on
members under Rule 23(c)(3).
(3) Judgment. Whether or not favorable to the class,
the judgment in a class action must:
(A) for any class certified under Rule 23(b)(1) or
(b)(2), include and describe those whom the court
finds to be class members; and
(B) for any class certified under Rule 23(b)(3),
include and specify or describe those to whom the

38a
Appendix D
Rule 23(c)(2) notice was directed, who have not
requested exclusion, and whom the court finds to
be class members.
(4) Particular Issues. When appropriate, an action
may be maintained as a class action with respect to
particular issues.
(5) Subclasses. When appropriate, a class may be
divided into subclasses that are each treated as a class
under this rule.
(d) Conducting the Action.
(1) In General. In conducting an action under this rule,
the court may issue orders that:
(A) determine the course of proceedings or
prescribe measures to prevent undue repetition or
complication in presenting evidence or argument;
(B) require—to protect class members and fairly
conduct the action—giving appropriate notice to
some or all class members of:
(i) any step in the action;
(ii) the proposed extent of the judgment; or
(iii) the members’ opportunity to signify
whether they consider the representation fair
and adequate, to intervene and present claims

39a
Appendix D
or defenses, or to otherwise come into the
action;
(C) impose conditions on the representative parties
or on intervenors;
(D) require that the pleadings be amended to
eliminate allegations about representation of absent
persons and that the action proceed accordingly; or
(E) deal with similar procedural matters.
(2) Combining and Amending Orders. An order under
Rule 23(d)(1) may be altered or amended from time to
time and may be combined with an order under Rule
16.
(e) Settlement, Voluntary Dismissal, or Compromise.
The claims, issues, or defenses of a certified class—or a
class proposed to be certified for purposes of settlement—
may be settled, voluntarily dismissed, or compromised
only with the court’s approval. The following procedures
apply to a proposed settlement, voluntary dismissal, or
compromise:
(1) Notice to the Class.
(A) Information That Parties Must Provide to the
Court. The parties must provide the court with
information sufficient to enable it to determine
whether to give notice of the proposal to the class.

40a
Appendix D
(B) Grounds for a Decision to Give Notice. The
court must direct notice in a reasonable manner
to all class members who would be bound by the
proposal if giving notice is justified by the parties’
showing that the court will likely be able to:
(i) approve the proposal under Rule 23(e)(2); and
(ii) certify the class for purposes of judgment
on the proposal.
(2) Approval of the Proposal. If the proposal would
bind class members, the court may approve it only
after a hearing and only on finding that it is fair,
reasonable, and adequate after considering whether:
(A) the class representatives and class counsel have
adequately represented the class;
(B) the proposal was negotiated at arm’s length;
(C) the relief provided for the class is adequate,
taking into account:
(i) the costs, risks, and delay of trial and appeal;
(ii) the effectiveness of any proposed method
of distributing relief to the class, including the
method of processing class-member claims;
(iii) the terms of any proposed award of
attorney’s fees, including timing of payment;
and

41a
Appendix D
(iv) any agreement required to be identified
under Rule 23(e)(3); and
(D) the proposal treats class members equitably
relative to each other.
(3) Identifying Agreements. The parties seeking
approval must file a statement identifying any
agreement made in connection with the proposal.
(4) New Opportunity to Be Excluded. If the class
action was previously certified under Rule 23(b)(3),
the court may refuse to approve a settlement unless
it affords a new opportunity to request exclusion
to individual class members who had an earlier
opportunity to request exclusion but did not do so.
(5) Class-Member Objections.
(A) In General. Any class member may object to
the proposal if it requires court approval under this
subdivision (e). The objection must state whether it
applies only to the objector, to a specific subset of
the class, or to the entire class, and also state with
specificity the grounds for the objection.
(B) Court Approval Required for Payment in
Connection with an Objection. Unless approved
by the court after a hearing, no payment or other
consideration may be provided in connection with:
(i) forgoing or withdrawing an objection, or

42a
Appendix D
(ii) forgoing, dismissing, or abandoning an
appeal from a judgment approving the proposal.
(C) Procedure for Approval After an Appeal.
If approval under Rule 23(e)(5)(B) has not been
obtained before an appeal is docketed in the court
of appeals, the procedure of Rule 62.1 applies while
the appeal remains pending.
(f) Appeals. A court of appeals may permit an appeal from
an order granting or denying class-action certification
under this rule, but not from an order under Rule 23(e)
(1). A party must file a petition for permission to appeal
with the circuit clerk within 14 days after the order is
entered, or within 45 days after the order is entered if
any party is the United States, a United States agency,
or a United States officer or employee sued for an act or
omission occurring in connection with duties performed
on the United States’ behalf. An appeal does not stay
proceedings in the district court unless the district judge
or the court of appeals so orders.
(g) Class Counsel.
(1) Appointing Class Counsel. Unless a statute
provides otherwise, a court that certifies a class must
appoint class counsel. In appointing class counsel, the
court:
(A) must consider:
(i) the work counsel has done in identifying or
investigating potential claims in the action;

43a
Appendix D
(ii) counsel’s experience in handling class
actions, other complex litigation, and the types
of claims asserted in the action;
(iii) counsel’s knowledge of the applicable law;
and
(iv) the resources that counsel will commit to
representing the class;
(B) may consider any other matter pertinent to
counsel’s ability to fairly and adequately represent
the interests of the class;
(C) may order potential class counsel to provide
information on any subject pertinent to the
appointment and to propose terms for attorney’s
fees and nontaxable costs;
(D) may include in the appointing order provisions
about the award of attorney’s fees or nontaxable
costs under Rule 23(h); and
(E) may make further orders in connection with
the appointment.
(2) Standard for Appointing Class Counsel. When
one applicant seeks appointment as class counsel, the
court may appoint that applicant only if the applicant
is adequate under Rule 23(g)(1) and (4). If more than
one adequate applicant seeks appointment, the court
must appoint the applicant best able to represent the
interests of the class.

44a
Appendix D
(3) Interim Counsel. The court may designate interim
counsel to act on behalf of a putative class before
determining whether to certify the action as a class
action.
(4) Duty of Class Counsel. Class counsel must fairly
and adequately represent the interests of the class.
(h) Attorney’s Fees and Nontaxable Costs. In a certified
class action, the court may award reasonable attorney’s
fees and nontaxable costs that are authorized by law or by
the parties’ agreement. The following procedures apply:
(1) A claim for an award must be made by motion
under Rule 54(d)(2), subject to the provisions of this
subdivision (h), at a time the court sets. Notice of the
motion must be served on all parties and, for motions
by class counsel, directed to class members in a
reasonable manner.
(2) A class member, or a party from whom payment is
sought, may object to the motion.
(3) The court may hold a hearing and must find the
facts and state its legal conclusions under Rule 52(a).
(4) The court may refer issues related to the amount of
the award to a special master or a magistrate judge,
as provided in Rule 54(d)(2)(D).

